<html>
<title> - IMPLEMENTATION OF THE NO CHILD LEFT BEHIND ACT</title>
<body><pre>[Senate Hearing 107-423]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-423
 
                         IMPLEMENTATION OF THE 
                        NO CHILD LEFT BEHIND ACT
=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON



EXAMINING THE IMPLEMENTATION OF THE ELEMENTARY AND SECONDARY EDUCATION 
ACT, FOCUSING ON ACCOUNTABILITY FOR RESULTS, PARENT AND STUDENT CHOICE, 
FLEXIBILITY FOR STATES, SCHOOL DISTRICTS, AND SCHOOLS, AND PROGRESS TO 
                                  DATE

                               __________

                             APRIL 23, 2002

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions








                       U. S. GOVERNMENT PRINTING OFFICE
79-324                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001









          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman
CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio
           J. Michael Myers, Staff Director and Chief Counsel
             Townsend Lange McNitt, Minority Staff Director







                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                             APRIL 23, 2002

                                                                   Page
Kennedy, Hon. Edward M., Chairman, Committee on Health, 
  Education, Labor, and Pensions, opening statement..............     1
Gregg, Hon. Judd, a U.S. Senator from the State of New Hampshire, 
  opening statement..............................................     2
Collins, Hon. Susan M., a U.S. Senator from the State of Maine, 
  opening statement..............................................     4
Frist, Hon. Bill, a U.S. Senator from Tennessee, prepared 
  statement......................................................     5
Questions from Senator Frist for Undersecretary Hickock and 
  Assistant Secretary Neuman.....................................     5
Enzi, Hon. Michael B., a U.S. Senator from Wyoming, prepared 
  statement......................................................     6
Hickock, Hon. Eugene W., Under Secretary, U.S. Department of 
  Education, accompanied by Susan B. Neuman, Assistant Secretary 
  for Elementary and Secondary Education, U.S. Department of 
  Education, Washington, DC, prepared statement..................     9


                         IMPLEMENTATION OF THE 
                        NO CHILD LEFT BEHIND ACT

                              ----------                              


                        TUESDAY, APRIL 23, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:45 p.m., in 
room SD-430, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy [chairman of the committee] presiding.
    Present: Senators Kennedy, Dodd, Jeffords, Wellstone, 
Murray, Reed, Clinton, Gregg, and Collins.

              OPENING STATEMENT OF SENATOR KENNEDY

    The Chairman. The committee will come to order.
    I apologize to our witnesses. This vote was initially for 
11 o'clock, then 11:30, and finally at 2:30, so I apologize for 
the late start.
    In January, President Bush signed the No Child Left Behind 
Act that reauthorized the Elementary and Secondary Education 
Act. The new law is a product of strong bipartisan cooperation 
and hard work, and I was pleased that our committee members 
played a lead role in enacting that law.
    But no matter what the law says, it will make a difference 
to students, parents and communities only if it is implemented 
well. If we are to ensure that no child is left behind, we must 
unite around three key principles--fairness, public engagement, 
and increased resources.
    First, we must ensure that the law is applied fairly, 
allowing room for State and local initiatives permitted under 
the new law. In passing the new law, Congress was clear about 
its expectations. We demanded tough accountability for results. 
We want to know whether schools are improving and helping our 
children do better. We required annual tests of the highest 
quality that provide the disaggregated data that schools need 
to know in order to determine what additional help is required 
for each and every child to succeed. We included new 
improvements to help train and support teachers so that every 
child in America is taught by a well-qualified teacher.
    However, within those guidelines, States and districts have 
the flexibility to fund programs that meet those goals, 
including reading programs, professional development programs, 
technology programs, or after-school programs, as long as they 
have been proven to work.
    We must uphold this principle as we provide information to 
States and communities about how to implement the law. For too 
long, we have only said that every child can learn to high 
standards. But we have not always devoted the time, attention, 
and resources to making that promise a reality for all 
children.
    Second, we must ensure that States, districts, schools, and 
parents are full partners in the reform effort by engaging them 
in the process of implementation. Without their support at each 
stage of the process, this new law will never fully succeed.
    We must take local concerns seriously and work to address 
them. We must provide ample information on how to make this law 
work, and we must do so soon. We must continue to provide 
technical assistance now, next year, the year after, to make 
sure such reforms in the law are implemented and implemented 
well from the beginning and continuing during the succeeding 
years.
    I hope that we will hear fewer reports of educators who say 
that parents do not want to be involved in their children's 
education and parents who say that educators make them feel 
unwelcome.
    Third, we must provide significant increases in the funding 
to ensure that the law is a success and that truly no child is 
left behind. We have made a down payment on school reform last 
year, but we have a continuing and growing obligation to help 
teachers and students. Even with last year's increase, the 
funding for the Title I program still leaves behind 6 million 
needy children. I am deeply concerned that the administration's 
budget for next year proposes to actually cut funding for 
public school reform and divert resources to private schools.
    The new law requires hard progress each and every year. It 
demands more of teachers and students to ensure that all 
children reach high goals to meet the challenges of the 21st 
century. To meet this challenge, we will need to train more 
teachers, not the 18,000 fewer as the administration's budget 
proposes. We will need to provide school districts with more 
services for limited English-proficient children, not 25,000 
fewer as the administration proposes. We will need more after-
school learning opportunities for latchkey children, not the 
33,000 fewer as the administration proposes. I think we all 
know that you do not achieve high standards on low budgets.
    If we can work together, I am confident we can succeed in 
giving every child a good education.
    We welcome Under Secretary Gene Hickok to our hearing 
today, the first in a series of oversight hearings that we plan 
on the new law. We look forward to learning about the 
Department of Education's progress, and I can say personally 
that I welcomed the opportunity to spend time recently with 
Under Secretary Hickok at the Department of Education, raising 
these issues and some others that we will have a chance to talk 
about. I appreciated his willingness to listen to some of the 
points that we raised and take them under consideration.
    Senator Gregg.

               OPENING STATEMENT OF SENATOR GREGG

    Senator Gregg. Thank you, Senator Kennedy.
    First, let me thank you for holding this hearing--I think 
it is a good idea--and I also want to congratulate you for your 
attentiveness to this bill, which we worked so hard on, and the 
fact that you have personally taken the time to not only follow 
it on the Hill but go down to the Department and make sure 
everybody is on their toes down there.
    There is a lot in this bill, and therefore, it is going to 
take a lot of us paying attention to it to make sure it is done 
well. But the priority goal of this bill is very simple--to 
make sure that children from low-income families have the 
opportunity to learn and that they not be left behind as, 
regrettably, they have been, and that Title I become an 
effective means for accomplishing that.
    Some of the issues which I am most interested in obviously 
involve the empowerment of parents when they find their 
children in schools which have failed and which continue to 
fail, and that involves how the Department is going to address 
things like public school choice and supplemental services, 
which I think will give parents options which could turn out to 
be of tremendous benefit to them and certainly to their 
children.
    We also obviously have to address some of the specific 
issues such as how we test, what types of testing regimes are 
set up, and make sure that we do not as a Federal Government 
become overly meddlesome in the States' rights to design their 
tests, but also recognize that States do have an obligation to 
have tests which mean something in the sense that they have to 
be comparable from community to community within their States, 
so that as we move into local assessment tests, we have a 
balanced way of comparing them.
    And we do, of course, have the question of criterion versus 
norm-referenced tests, which all of us recognize as an issue 
that has to be dealt with.
    Most important in this whole atmosphere, though, is the 
need to make sure that we do not create an unfunded mandate 
here, that the cost of going forward with these tests which we 
are now requiring of the States will be borne by the Federal 
Government. There have been, I believe, a number of good 
studies in this area, and I believe the dollars which the 
President has put into this account effectively cover that 
issue in light of those studies, and I believe there have been 
some studies which have serious defects which may misrepresent 
that issue, but I do believe that an honest assessment says 
that the huge amount of money which we have put into this bill 
for testing and to pay for testing is appropriate and will 
cover that.
    I am also interested in how the Department is going to see 
the AYP issue. This is going to be a huge question. We do not 
want to--it was our goal when we put this bill together, and we 
talked about this at almost interminable length, that we did 
not want to end up with every school being rated a failure. 
Rather, we felt that we did want to have this bill focused on 
those schools which need the most help and those students who 
can get the most benefit as low-income students. So we have to 
be careful how we proceed on that course.
    On the dollar issue, I know there is some concern about 
dollars, and it is raised and mentioned on occasion around 
here. But I do think it is important--I have brought a chart 
with me, because you cannot function in the Senate without 
charts--to reflect on what has been accomplished by this 
administration in the area of funding Title I.
    If you look at the Title I increases between the period 
1995 and 2001, you will see that there was about a $2 billion 
increase over that 7-year period, which was the period of the 
prior administration. This administration came in with a clear 
agenda, which was to significantly increase funding for Title I 
and also significantly increase funding for IDEA. In the 2 
years that this administration has addressed this issue, they 
have made a commitment of over $2.5 billion toward title I, 
which is obviously about 25 percent more than was funded over 
the prior 7 years.
    So I do believe that the dollars are being put on the 
table. It is not as much has some would like, but it is a very 
significant commitment, and it will accomplish a great deal as 
it moves through the system and assists low-income children in 
having a better shot at education and quality education.
    So I look forward to hearing from the Department, and 
again, Mr. Chairman, I thank you for calling this hearing.
    The Chairman. Thank you.
    Senator Collins, would you like to say a word?

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you very much, Mr. Chairman.
    I want to thank you for holding this hearing so that we can 
learn of the Department's progress in implementing the landmark 
education law on which we all worked so hard last year and 
which the President signed into law in January.
    That had been a truly bipartisan effort with great 
cooperation between the Senate and the administration, as well 
as the House, and I hope that that is the approach we can 
continue as we move toward the implementation process.
    I am particularly interested in the provisions of the new 
law that deal with reading programs and assessments, and I will 
be asking questions in both areas today.
    In addition, I am very proud of having authored the Rural 
Education Initiative which was included in that law. I am 
disappointed that the budget does not provide funding for the 
next fiscal year for that program, and that is something that I 
will be pursuing as well.
    It is very important that we make sure that we are not only 
focusing on our urban schools but also on the majority of 
school systems in our country which qualify as rural schools 
and may well have different needs.
    So again, I want to thank our witnesses for being here 
today, and I look forward to working with you in the 
implementation of what I believe is a law that will help us 
achieve the inspiring goal that the President put forth of 
leaving no child behind.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I submit for the record statements from Senator Frist and 
Senator Enzi.
    [The prepared statements of Senator Frist and Senator Enzi 
follow:]

                  Prepared Statement of Senator Frist

    I want to thank our witnesses for appearing here today to 
update us on implementation of the historic education reform 
bill, ``The No Child Left Behind Act.'' I am pleased with the 
pace of implementation of ESEA and commend our witnesses and 
the Department of Education for all their hard work. I look 
forward to hearing an update on the States' progress, including 
details about the regulations regarding adequate yearly 
progress, public school choice and supplemental services.
    As President Bush has said, too many children in America 
are segregated by low expectations, illiteracy, and self-doubt. 
In a constantly changing world that is demanding increasingly 
complex skills from its workforce, children are literally being 
left behind. I believe that the programs and reforms contained 
in ``The No Child Left Behind Act'' will help Tennessee schools 
better prepare our children for the future.
    I know the members of the rival party believe increased 
funding is the answer to all our schools' problems. But, time 
has shown that money alone is not the answer. Despite spending 
$125 billion in Federal education aid for disadvantaged 
children over the past 25 years, fourth-graders who are African 
American, Hispanic, or poor, have less than a 50/50 chance of 
being able to read. President Bush changed the education debate 
by demanding results and accountability. At the same time, the 
President has dramatically increased funding for education 
while requiring reforms.
    Let's take a look at the numbers:
    <bullet> In 2000, Title I funding was $7.9 billion. 
President Bush has requested $11.4 billion for Title I in 2003, 
a 44 percent increase over 2000 levels.
    <bullet> In 2000, the Reading program received $260 
million. President Bush has requested $1.075 billion for 
Reading First in 2003, a 284 percent increase.
    <bullet> In 2000, funding for teachers reached $2 billion. 
President Bush has requested $2.9 billion for teachers in 2003, 
a 45 percent increase.
    <bullet> In 2000, funding for after school programs was 
$453 million, and the President has requested $1.075 billion 
for 2003, a 137 percent increase.
    <bullet> Finally, if President Bush is granted his 2003 
budget request for the Department of Education, the Department 
will receive a 42 percent increase as compared to 2000, moving 
from $35.6 billion to $50.3 billion.
    Before we insist on increasing funding beyond these levels, 
we should allow time for ``The No Child Left Behind Act'' to be 
implemented, so that we can find out what works and what does 
not work. Otherwise, we may continue to fund failure at the 
expense of our children's future.
    Thank you, Mr. Chairman and Senator Gregg for holding this 
hearing. I look forward to hearing our witnesses' statements.
  questions for under secretary hickok and assistant secretary neuman
    Question 1. The Math and Science Partnership Program (MSPP), which 
became part of the ``No Child Left Behind Act,'' was originally created 
at NSF. I understand, however, that NSF was allocated $160 million for 
MSPP while the Department of Education received only $12.5 million for 
it. Because of the funding inequity, the Department piggy-backed their 
funds onto the NSF program for 2002.
    Some Senators have requested appropriators to fund MSPP at as high 
a level as possible in 2003 to fulfill its promise. Many believe the 
Department of Education should run this program instead of NSF because 
it has better relationships with schools and understands how to work 
with them better than NSF. If the MSPP were to receive significantly 
more funding in 2003, how would the Department work to coordinate 
efforts with the NSF?

    Question 2. Gary Lee, a Superintendent from Jackson County, 
Tennessee wrote me to express his dismay about the fact Jackson County 
did not qualify for the Rural and Low-Income School Program. 
Unfortunately for Jackson County, the most recent poverty data broken 
down by school districts is from 1997. According to the 1997 data, 
Jackson County does not qualify, but Jackson County would qualify 
according to the most recent 1998 data.
    I am concerned about this lag in census data. At this rate, the 
areas that have been hardest hit by the recession of 2001-2 will not 
receive Federal funding to help combat the effects of that recession 
until the 2006-7 school year. What can the Department or Congress do to 
help speed up this process?
                               __________

                   Prepared Statement of Senator Enzi

    Thank you, Mr. Chairman, I am pleased to join you in 
welcoming the Under Secretary of Education, Gene Hickok, and 
Susan B. Neuman, Assistant Secretary for Elementary and 
Secondary Education. Secretary Hickok, Assistant Secretary 
Neuman, I appreciate your willingness to update this committee 
on the Department of Education's progress as you implement the 
sweeping reforms included in the No Child Left Behind Act.
    As members of this committee are well aware, the No Child 
Left Behind Act reflects an agenda that President Bush made 
clear during his first days in office when he invited lawmakers 
to his ranch in Crawford, Texas to discuss his number one 
domestic priority, education reform. This legislation ensures 
that every child in America will receive a quality education by 
emphasizing accountability, flexibility and local control, 
funding for programs that work, and expanded parental control. 
Students' access to technology, high quality teachers, and safe 
learning environments are also a priority. This legislation 
also fulfills an important commitment to States like Wyoming 
that are already heavily invested in improving student 
achievement by allowing them the flexibility they need to 
continue to innovate.
    In addition to the critical educational supports and 
services provided by the No Child Left Behind Act, this 
legislation also provides unprecedented increases in funding 
for programs that help to educate our Nation's neediest 
children. In fact, if Congress passes President Bush's fiscal 
year 2003 budget request, which contains a $1 billion increase 
for Title I, that will mean that Title I funding will have 
increased nearly as much during the first 2 years of the Bush 
administration as it did during the previous 8 years combined. 
Mr. Chairman, I would like to request that these documents, 
complied by the Department of Education and the Congressional 
Research Service, detailing the Bush administration's 
commitment to funding education in Wyoming and across the 
Nation be included in the record.
    I would like to commend the Department of Education for 
their speed and success during the initial implementation of 
the No Child Left Behind Act. They are making great progress. I 
would also like to congratulate Secretary of Education Rod 
Paige for his efforts to inform parents and educators about the 
options that this new legislation makes available by embarking 
on the 25-city No Child Left Behind Tour Across America. His 
hard work is providing a great service to educators, parents 
and children across the Nation.
    One of the issues that has been receiving the most 
attention during the initial implementation stage is the new 
State-based accountability system that was put in place to 
ensure that all children are learning. There are some who are 
questioning whether it is the intent of the No Child Left 
Behind Act to allow States the option of using local assessment 
measures as part of their statewide accountability systems. 
Since one of the major principles of the ``No Child Left Behind 
Act'' was increased flexibility for States, I firmly believe it 
was the intent of this legislation to allow States to develop 
accountability systems that suit their individual needs. I am 
pleased that the Department of Education's draft regulations on 
Title I Standards and Assessments reflect this intent. I was so 
pleased, in fact, that I, and several other members of this 
committee, wrote to Secretary Paige expressing our support for 
these draft regulations. Mr. Chairman, I would like to ask that 
a copy of that letter to Secretary Paige be included in the 
hearing record. In short, this letter states that the Federal 
Government must be willing to allow States to determine the 
best way to assess children, as long as those assessments are 
of sufficient quality and meet the rigorous standards that are 
required by the No Child Left Behind Act. I am aware that the 
Department of Education plans to hold regional meetings on this 
issue throughout the month of May and I look forward to hearing 
what local educators and interested citizens have to say.
    Finally, I would like to express my thanks to Wyoming's 
State Superintendent of Education, Judy Catchpole, and her 
hardworking staff. Not only is Judy doing a great job of 
beginning to implement the No Child Left Behind Act, but she 
also made sure that States across the Nation were well 
represented during the Title I Standards and Assessments 
negotiated rulemaking process when she was one of the State 
officials chosen to participate.
    I look forward to continuing to work on the issues 
surrounding the implementation of this legislation. Thank you 
Mr. Chairman.
    The Chairman.I also want to recognize Susan Neuman, who is 
the Assistant Secretary of the Office of Elementary and 
Secondary Education. She is tasked with leading the day-to-day 
implementation of ESEA, and her experience as an educator, a 
parent, and a researcher will help us all. We are glad to 
welcome her to the committee today.
    Mr. Hickok, we look forward to hearing from you.

STATEMENT OF EUGENE W. HICKOK, UNDER SECRETARY, U.S. DEPARTMENT 
    OF EDUCATION, ACCOMPANIED BY SUSAN B. NEUMAN, ASSISTANT 
    SECRETARY FOR ELEMENTARY AND SECONDARY EDUCATION, U.S. 
            DEPARTMENT OF EDUCATION, WASHINGTON, DC

    Mr. Hickok. Thank you, Mr. Chairman. Good afternoon, 
members of the committee.
    I am going to submit my statement for the record rather 
than read the entire text.
    I do want to express my personal appreciation for the 
chance to be with you today and in the future to talk about 
implementation of this very, very important and very, very 
complex and comprehensive new law.
    I also want to express again my deep appreciation and that 
of Secretary Paige and the administration for your leadership, 
Mr. Chairman, and yours, Senator Gregg, and all of you on this 
committee and your colleagues in the House.
    Secretary Paige has said a number of times, and I would 
echo the sentiment, that in many ways because of the bipartisan 
nature of this endeavor, this is neither a Republican nor a 
Democratic law; it is an American law, it is an American bill, 
and it is all about what we have in common, trying to do what 
we can to leave no child behind.
    I stated that this is a very complex and difficult piece of 
legislation, but interestingly, as you all know, it is really 
built around four basic principles, and I would just reiterate 
those four principles very briefly.
    The first is one that I think is at the heart of this new 
law, and that is improving accountability for results. As we 
talk about spending, as we talk about performance, we would 
like to talk about investing in things that we know work so 
that we get educational results.
    The second principle is more choices and more options for 
parents and for students. In many ways, our goal here is to 
leave no child behind, and the focus here is on students, on 
children, and children who are through no fault of their own 
enrolled in schools that are not working that need to find 
relief. This law talks about providing some relief.
    The third principle, one that I am very partial to because 
of my record as a State Chief for 6 years in Pennsylvania, is 
greater flexibility at the State and local level. I guess I am 
a federalist when it comes to this issue; I would like to make 
sure that there are ways--and there are in this law--to create 
opportunities for some pretty interesting, innovative 
approaches to education policy at the State level and at the 
local level through more flexibility.
    Finally, the fourth principle, which is written throughout 
the legislation and will receive more and more focus in the 
days and weeks and years to come, is education-based education 
policy and good, solid research.
    The record is pretty spotty in education from where I sit 
on the quality of education research, both at the Federal 
Department of Education and the State departments around the 
country, everywhere. One of our goals is to turn that around so 
that we can provide good, solid evidence of what works so that 
future administrations and future Congresses, future school 
boards and State departments, can make better decisions and 
wiser decisions on educational policy. We think it is very much 
needed.
    I think I will stop with that except to make a few 
observations. I had my staff do an analysis, what I call a road 
map or a task list, of this large piece of legislation, and I 
think there are something like 1,560 discrete tasks that this 
Department will have to deal with in the coming days and weeks 
and years to fully implement this law. I hope to be able to 
come before you sometime in the not too distant future and give 
you my report card on how far down that punch-list we have come 
in the period of time allotted to us.
    I also want to make sure that I introduce my colleague 
Susan Neuman. She is the Assistant Secretary for Elementary and 
Secondary Education. A great majority of the material that this 
law is all about consumes her day and night, as well as her 
staff. She is here with me to respond to any questions that you 
might have.
    Thank you very much for the opportunity to be with you, 
Senator.
    [The prepared statement of Mr. Hickok follows:]

                 Prepared Statement of Eugene W. Hickok

    Mr. Chairman and members of the committee, I appreciate the 
opportunity to appear before you this afternoon to discuss the 
department's implementation of the No Child Left Behind Act, the recent 
reauthorization of the Elementary and Secondary Education Act of 1965. 
The enactment of No Child Left Behind was a watershed event in the 
history of Federal support for K-12 education. It gives me great 
pleasure to discuss its significance and the department's efforts to 
ensure its successful implementation across this country.
    Mr. Chairman, only 3 days after taking office, President Bush 
unveiled No Child Left Behind as a comprehensive strategy for 
restructuring Federal elementary and secondary education programs and 
leading the way toward national reform and renewal in education. Less 
than a year later, he signed into law this remarkable, bipartisan 
program for improving the performance of America's elementary and 
secondary schools while ensuring that no child is trapped in an unsafe 
or failing school.
    I would like to commend the members of this committee for the 
bipartisan efforts on the legislation. And I would like to give special 
thanks to you, Mr. Chairman, and to Senator Gregg for the leadership 
that made the bill possible--leadership and many hours spent in 
bicameral and bipartisan negotiations.
    The new act embodies the key principles and themes that the 
President emphasized upon taking office. These principles include:
    (1) Increased accountability for results: The No Child Left Behind 
Act provides for real performance accountability in the Title I program 
by requiring statewide accountability systems covering all public 
schools and students. These systems must be based on challenging State 
standards in reading and mathematics (and later, science), annual 
testing for all students in grades 3-8, and annual statewide progress 
objectives for ensuring that all students reach proficiency in reading 
and math within 12 years. Schools and school districts that fail to 
meet these objectives, both for all students and for specific student 
groups, would be subject to improvement, corrective action, and 
restructuring aimed at getting them back on track.
    (2) More choices for parents and students: The new act 
significantly increases the choices available to students attending 
low-performing schools. Beginning in the coming school year, they must 
be given the opportunity to attend another public school that is making 
``adequate yearly progress'' under Title I, and the district must 
provide transportation to that new school. Public school choice must 
also be provided for students in persistently dangerous schools. 
Students attending schools that fail to make adequate yearly progress 
for 3 years in a row will have the opportunity to receive supplemental 
academic services, such as after-school tutoring, from providers who 
can demonstrate success in raising student achievement. The act also 
enhances the department's support for innovations in public school 
choice, by creating programs for the support of voluntary public school 
choice and the financing of charter school facilities .
    (3) Greater flexibility for States, school districts, and schools: 
Through a number of mechanisms, the new act greatly expands the 
flexibility of States, local educational agencies, and schools to use 
Federal funds in a manner that best reflects State and local needs and 
priorities. These mechanisms include the ``State-Flex'' and ``Local-
Flex'' demonstration authorities, which will give up to 7 States and 
150 districts the flexibility to consolidate Federal program funds and 
use them for any authorized purpose, in exchange for committing 
themselves to improving student achievement and narrowing achievement 
gaps. The ``transferability'' authority, another new innovation, will 
allow all States and most districts to transfer, across program 
categories, up to half of their formula allocations for certain major 
programs.
    (4) A focus on what works: The new law consistently calls for 
States, school districts, and other grantees to use their ESEA funds to 
implement programs that reflect scientifically-based research; that is, 
programs, activities, and strategies that high-quality research shows 
are truly effective in raising student achievement. The Congress 
clearly signaled a lack of patience with the faddishness that 
frequently substitutes for research-based approaches to educating our 
children. Particularly in the area of reading, where the act created 
the new Reading First program, the members said that we know what 
works, we have a solid research base; now it is time to ensure that all 
our children benefit.
    Those are some of the major themes and messages in the No Child 
Left Behind Act. These key principles are also guiding our 
implementation of the act; they will be reflected in our regulations, 
in non-regulatory guidance, and in the instructions we develop for 
formula and competitive grant applications. As we delve into the 
details of implementation, we cannot lose sight of the major principles 
that motivated enactment of the statute.
    I will use the remainder of my time to give you a brief overview of 
the department's progress in implementing the act.
                    regulations and program guidance
    When a piece of legislation like No Child Left Behind is enacted, 
educators across the country eagerly await information from the 
department on how the new and revised programs will operate. We provide 
that information either through regulations or non-regulatory program 
guidance. Through these documents, we interpret provisions that may be 
ambiguous in the statute, fill in a few of the blanks, and translate 
statutory text into plain English.
    Our guiding principle in implementing No Child Left Behind is to 
regulate only when it is absolutely necessary, because non-regulatory 
guidance tends to provide States and local educational agencies with 
greater flexibility. Thus, we have been working assiduously on 
developing guidance for major formula grant programs, such as the 
Teacher Quality, Educational Technology, and 21st Century Community 
Learning Centers State grant programs. In developing our guidance 
packages, we have worked closely with State educational agencies and 
others who administer the programs. The work on the guidance documents 
is proceeding rapidly, and we expect to have most of them completed 
later this spring.
    In some cases, we will have to issue formal regulations. In 
particular, the act calls on the department to develop, through a 
negotiated rulemaking process, regulations for the standards and 
assessment requirements under Title I. We carried out this negotiated 
rulemaking, or ``reg-neg'' as it is called, during the second and third 
weeks of March. We assembled a panel of State and local off1cials, 
school principals, teachers, parents, and representatives of students 
and the business community. Our negotiators for the department were 
Assistant Secretary Susan Neuman and Joseph Johnson, our Title I 
director. In my opinion, this process was a great success. The 
negotiators reached consensus on such important issues as the 
requirement for inclusion of all students in State assessments, the use 
of ``out-of-level'' tests in assessing students with disabilities, and 
the assessments administered to private school children who participate 
in Title I.
    We will now issue, as proposed regulations, the agreements 
negotiated through that process, along with companion regulations for 
certain other key Title I issues, such as ``adequate yearly progress'' 
and formula allocations to local educational agencies. We will convene 
five regional meetings during May for discussion of the proposed 
regulations with educators and members of the public. Once we have 
received public input, we will complete final regulations; we 
anticipate completing this process some time this summer.
                    consolidated state applications
    For each State formula program in ESEA, the Act provides detailed 
instructions on the information States must provide to the department 
in their State applications. However, the act also permits States to 
submit a consolidated application in place of some or all of the 
individual program applications, and instructs the Secretary to 
require, in that consolidated application, only the information 
absolutely necessary for consideration by the department.
    Because submission of a consolidated application can reduce State 
burden enormously, and because most States are likely to take advantage 
of this option, we have spent a great deal of time developing 
instructions for the application. On March 6, we issued proposed 
instructions, on which we are now taking public comment, and we have 
convened focus groups of State and local officials to discuss the 
application. Our goal is to abide by the statutory charge to require 
the minimum amount of information necessary, while making sure that the 
department receives the data and documentation essential for ensuring 
program integrity and accountability. In fact, we believe the 
consolidated application should include the baseline data that will 
undergird a new performance-based information system for elementary and 
secondary programs.
    We intend to issue final criteria for the applications in mid-April 
so that we can obtain the applications in time to make formula grants 
on schedule at the beginning of July.
              performance-based data management initiative
    The department's new Performance-Based Data Management Initiative 
will facilitate smoother implementation of No Child Left Behind by 
reducing the current collection and reporting burden. The initiative 
will replace many disconnected information systems currently in use by 
the department to collect data from States and school districts. When 
fully implemented, the new system will promote efficient ways to share 
data across States and districts and provide more accurate and useful 
data at all levels of the education community. Thus, the new system 
will allow States and districts to devote more time to their core 
educational mission and increase the focus on outcomes and 
accountability for student performance rather than compliance.
                      new flexibility initiatives
    The new act holds States and school districts accountable for 
educating all their children to high standards. But more than ever 
before, it gives them room to use Federal funds to develop and 
implement their own strategies for improving education. States and 
local educational agencies will have new opportunities to combine 
Federal funds, rather than using them within narrow categories, in a 
manner that reflects local needs and priorities.
    The new flexibility provisions include the State and local 
flexibility demonstrations, or ``State-Flex'' and ``Local-Flex'' as we 
call them. They allow selected States and districts to consolidate 
their Federal funds and use them for any authorized purpose, in 
exchange for a commitment to improving student achievement. In addition 
to those competitive authorities, all States and most districts will be 
able to take advantage of the ``transferability'' provisions, which 
allow the transfer of up to half the money they receive under certain 
formula programs across those programs or into Title I.
    Ever since the legislation passed, we have been working to ensure a 
swift and successful implementation of these important new authorities. 
We want all States and school districts to know about these new 
opportunities to improve their use of Federal dollars. We want to 
receive as many high-quality applications as possible for the 
demonstration programs, and we are ready to provide technical 
assistance to applicants. We have published proposed rules for both 
``State-Flex'' and ``Local-Flex'' and have taken steps to inform States 
and districts about the new provisions and to receive their comments on 
implementation. We anticipate announcing the first Local-Flex districts 
by the end of this summer, and the State-Flex winners by the end of 
November. We have already heard from several States that are interested 
in applying for the State-Flex authority.
                              new programs
    The No Child Left Behind Act consolidated a number of ESEA 
programs, but also created some new programs for us to administer. A 
major focus of our efforts in recent months has been on implementing 
these programs. For instance, Reading First embodies the President's 
commitment to ensuring that all children learn to read by the third 
grade. All States will be eligible to receive formula grants for 
implementation of programs of scientifically based reading instruction, 
particularly in schools where high percentages of students are not 
learning to read. Early Reading First is a companion program that 
focuses on preparing preschool-aged children to learn to read once they 
enter school. At this time, we are moving ahead, on schedule, with 
implementation of these and the other new programs.
                            public outreach
    Implementing No Child Left Behind involves more than just issuing 
regulations, reviewing applications, and making the grants. It really 
means bringing the whole country together around the idea that, if we 
are to continue to flourish as a Nation, no child really can be left 
behind, that it is time to stop making excuses for educational failure, 
and time to use the framework provided by this legislation to get on 
with what we have to do. Toward that end, we have communicated 
continually with governors, chief State school officers, school 
superintendents, teachers, parents, and the general public on this act 
and on the vision that it embodies. On the week of the signing, the 
secretary convened an historic summit with State superintendents to 
discuss implementation of the new law. We have held three leadership 
academies with State officials and one with big-city districts to 
acquaint them with the Reading First program. We also have held other 
forums and have more planned for the future. Making No Child Left 
Behind succeed will require more than the department's effort, it will 
require everyone's effort, and we intend to use every opportunity to 
bring the country along with us.
    In conclusion, let me say that the department really has been 
operating on all cylinders since the Congress passed the act in 
December and the President signed it in January. The late enactment of 
the bill, and of the fiscal year 2002 appropriation, left us very 
little time to get all the pieces in place before the coming school 
year. At this point, I think we are on schedule. We have faced 
challenges in implementing this very important and complex legislation, 
and there will be further challenges ahead. But I think we can 
implement all components successfully and on time, and I welcome your 
support.
    I would be happy to answer any questions you may have.

    The Chairman. Very good. Thank you.
    Ms. Neuman, is there anything that you wanted to say?
    Ms. Neuman. Not at this time, no.
    The Chairman. Thank you.
    I will put in the record at the appropriate place, as I am 
sure you would want me to, the record of funding for ESEA in 
recent years, as well as the current budget request, just so we 
are clear.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 79324.001
    
    <bullet> The Bush administration has proposed the worst education 
budget in 7 years--a 2.8 percent increase for education that is barely 
enough to meet the cost of inflation and less than one-fourth of the 13 
percent average increase over the last 7 years. (Source: U.S. Dept of 
Education, Budget Service, www.ed.gov. (Budget History)).
    <bullet> Two months after passage of the ``No Child Left Behind 
Act,'' the Bush administration proposed to cut its funding by nearly 
$100 million. (Source:U.S. Dept. of Education Fiscal Year 2003 Budget 
Summary, February 2002).
    <bullet> The Bush budget shortchanges the promise of a better 
education for disadvantaged children for next fall under the Title I 
program by almost $5 billion and leaves 6 million needy children behind 
as school reform for other children moves ahead. (Source: U.S. Senate 
Health, Education, Labor, and Pensions Committee).
    <bullet> The Bush budget pushes 33,000 latch-key children out of 
after-school programs nationwide.
    <bullet> 25,000 limited English proficient children would be cut 
from Federal bilingual education programs nationwide.
    <bullet> The Bush education budget freezes funding for most 
education programs, including the Title II teacher quality and class 
size reduction program, failing to adjust for inflation and thereby 
reducing services. It cuts funding for teacher professional 
development, new teacher mentoring, and teacher recruitment. It cuts 
funding for class size reduction and school repair. 18,000 fewer 
teachers nationwide will receive training. (Source: U.S Dept. of 
Education Fiscal Year 2003 Budget Summary, February 2002).
    <bullet> The Bush administration's FY 2003 budget proposals for 
student assistance programs are $1.4 billion below the current services 
level needed to offset inflation and address enrollment growth. For 
example, the Bush budget would result in a $100 cut in the maximum Pell 
Grant from $4,000 to $3,900. In total, the proposed budget would serve 
375,000 fewer students compared to current services, according to the 
Bush administration's own budget justification documents.
    <bullet> The President is requesting $50.3 billion in discretionary 
appropriations for the Department of Education in fiscal year 2003, an 
increase of $1.4 billion or 2.8 percent over the 2002 enacted level. 
(U.S. Dept. of Education Fiscal Year 2003 Budget Summary).

                                             DEPARTMENT OF EDUCATION
                Funds for State Formula-Allocated and Selected  Student Aid Programs for Wyoming
----------------------------------------------------------------------------------------------------------------
                                                       2001            2002                         Change from
                                                   appropriation   appropriation   2003 request     2002 appro.
----------------------------------------------------------------------------------------------------------------
ESEA Title 1--Grants to Local Educational            $19,569,782     $23,883,476     $26,495,658      $2,612,182
 Agencies.......................................
ESEA Title 1--Reading First State Grants........               0       2,158,750       2,400,000         241,250
ESEA Title 1--Even Start........................       1,122,500       1,127,500         910,000               0
ESEA Title 1--Migrant...........................         266,080         276,490         276,490               0
ESEA Title 1--Neglected and Delinquent..........         408,145         429,548         429,548               0
ESEA Title 1--Comprehensive School Reform.......         465,706         509,153         525,234          16,081
ESEA Title 1--Capital Expenses for Private                 2,879               0               0               0
 School Children................................
                                                 ---------------------------------------------------------------
    Subtotal, Education for the Disadvantaged...      21,835,092      28,384,917      31,036,930       2,652,013
Impact Aid--Basic Support Payments..............       8,220,403       6,360,038       6,436,488          76,450
Impact Aid--Payments for Children with                   406,750         407,945         407,945               0
 Disabilities...................................
Impact Aid--Construction........................          71,617         153,740         153,740               0
Impact Aid--Payments for Federal Property.......               0               0               0               0
                                                 ---------------------------------------------------------------
    Subtotal, Impact Aid........................       8,698,770       6,921,723       6,998,173          76,450
Improving Teacher Quality State Grants..........               0      13,567,163      13,567,163               0
Class Size Reduction............................       7,605,781               0               0               0
Eisenhower Professional Development State Grants       2,398,869               0               0               0
Safe and Drug--Free Schools and Communities            2,142,933       2,307,865       2,307,865               0
 State Grants...................................
State Grants for Community Service for Expelled                0         250,000               0       (250,000)
 or Suspended Students..........................
21st Century Community Learning Centers.........           \1\ 0       1,522,706       2,787,808       1,265,102
Educational Technology State Grants.............       2,250,000       3,078,446       3,239,552         161,106
State Grants for Innovative Programs............       1,911,525       1,911,525       1,911,525               0
Fund for the Improvement of Education--                   90,717         136,075               0       (136,075)
 Comprehensive School Reform....................
State Assessments and Enhanced Assessment                      0       3,389,341       3,407,669          18,328
 Instruments....................................
Education for Homeless Children and Youth.......         100,000         150,000         150,000               0
Rural and Low-income Schools Program............               0          14,167               0        (14,167)
School Renovation Grants........................       5,483,750               0               0               0
Indian Education--Grants to Local Educational            498,555         523,857         523,857               0
 Agencies.......................................
Language Acquisition State Grants...............               0         500,000         500,000               0
Immigrant Education.............................               0               0               0               0
Special Education--Grants to States.............      13,896,695      16,711,120      19,181,491       2,470,371
Special Education--Preschool Grants.............       1,090,450       1,090,450       1,090,450               0
Special Education--Grants for Infants and              1,878,520       2,043,288       2,141,694          98,406
 Families.......................................
                                                 ---------------------------------------------------------------
    Subtotal, Special Education.................      16,865,665      19,844,858      22,413,635       2,568,777
Vocational Rehabilitation State Grants..........       6,506,430       8,184,617       8,631,737         447,120
Client Assistance State Grants..................         118,241         120,724         120,724               0
Protection and Advocacy of Individual Rights....         138,633         147,782         147,782               0
Supported Employment State Grants...............         300,000         300,000               0       (300,000)
Independent Living State Grants.................         297,581         297,581         297,581               0
Services for Older Blind Individuals............         225,000         225,000         225,000               0
Protection and Advocacy for Assistive Technology          50,000          50,000          50,000               0
                                                 ---------------------------------------------------------------
    Subtotal, Rehabilitation Services and              7,635,885       9,325,704       9,472,824         147,120
     Disability Research........................
Vocational Education State Grants...............       4,214,921       4,214,921       4,214,921               0
Vocational Education--Tech-Prep Education State          280,263         285,551         285,551               0
 Grants.........................................
Adult Education State Grants....................         761,550         801,046         801,046               0
English Literacy and Civics Education State               60,000          60,000          60,000               0
 Grants.........................................
State Grants for Incarcerated Youth Offenders...          32,305          32,305               0        (32,305)
                                                 ---------------------------------------------------------------
    Subtotal, Vocational and Adult Education....       5,349,039       5,393,823       5,361,518        (32,305)
Federal Pell Grants.............................      18,100,000      19,700,000      19,900,000         200,000
Federal Supplemental Educational Opportunity             888,235         931,940         931,940               0
 Grants.........................................
Federal Work-Study..............................       1,253,418       1,253,418       1,253,418               0
Federal Perkins Loans--Capital Contributions....         220,784         220,784         220,784               0
Leveraging Educational Assistance Partnership...          92,195         112,433               0       (112,433)
Byrd Honors Scholarships........................          75,000          73,500          73,500               0
                                                 ---------------------------------------------------------------
    Total.......................................     103,496,213     119,514,245     126,058,161       6,543,916
----------------------------------------------------------------------------------------------------------------
\1\ Prior to fiscal year 2002, funds for 21st Century Community Learning Centers were not allocated by formula.


    TABLE 2.--ESTIMATED ESEA TITLE 1-A GRANTS FOR FY02 UNDER THE  CONFERENCE VERSIONS OF H.R. 1 AND H.R. 3061
----------------------------------------------------------------------------------------------------------------
                     State                        Actual FY01 grant   Estimated FY02 grant    Percentage change
----------------------------------------------------------------------------------------------------------------
ALABAMA.......................................          $133,799,574          $155,525,000                  16.2
ALASKA........................................            23,064,148            29,717,000                  28.8
ARIZONA.......................................           137,445,740           172,601,000                  25.6
ARKANSAS......................................            83,257,615            96,973,000                  16.5
CALIFORNIA....................................         1,155,139,183         1,453,077,000                  25.8
COLORADO......................................            78,562,595            96,829,000                  23.3
CONNECTICUT...................................            83,812,994           105,341,000                  25.7
DELAWARE......................................            22,220,748            28,466,000                  28.1
DISTRICT OF COLUMBIA..........................            26,602,647            34,401,000                  29.3
FLORIDA.......................................           400,839,734           510,406,000                  27.3
GEORGIA.......................................           250,866,383           312,310,000                  24.5
HAWAII........................................            25,773,215            33,063,000                  28.3
IDAHO.........................................            26,557,496            32,842,000                  23.7
ILLINOIS......................................           357,248,214           436,625,000                  22.2
INDIANA.......................................           128,797,584           156,748,000                  21.7
IOWA..........................................            55,102,714            61,726,000                  12.0
KANSAS........................................            61,259,673            74,001,000                  20.8
KENTUCKY......................................           130,624,753           151,163,000                  15.7
LOUISIANA.....................................           191,576,000           211,209,000                  10.2
MAINE.........................................            32,488,539            38,000,000                  17.0
MARYLAND......................................           124,098,482           155,623,000                  25.4
MASSACHUSETTS.................................           180,987,023           220,690,000                  21.9
MICHIGAN......................................           349,305,563           412,216,000                  18.0
MINNESOTA.....................................            95,313,310           114,813,000                  20.5
MISSISSIPPI...................................           124,800,491           130,451,000                   4.5
MISSOURI......................................           140,578,687           161,788,000                  15.1
MONTANA.......................................            28,242,684            34,558,000                  22.4
NEBRASKA......................................            32,935,512            37,187,000                  12.9
NEVADA........................................            32,381,713            41,353,000                  27.7
NEW HAMPSHIRE.................................            21,390,479            27,775,000                  29.8
NEW JERSEY....................................           209,372,261           256,952,000                  22.7
NEW MEXICO....................................            68,503,891            81,979,000                  19.7
NEW YORK......................................           822,655,074         1,028,355,000                  25.0
NORTH CAROLINA................................           172,306,751           212,222,000                  23.2
NORTH DAKOTA..................................            21,081,381            27,275,000                  29.4
OHIO..........................................           303,990,460           336,773,000                  10.8
OKLAHOMA......................................           101,343,518           121,007,000                  19.4
OREGON........................................            76,714,311            94,008,000                  22.5
PENNSYLVANIA..................................           346,293,427           402,563,000                  16.2
PUERTO RICO...................................           267,301,458           332,720,000                  24.5
RHODE ISLAND..................................            27,057,169            34,347,000                  26.9
SOUTH CAROLINA................................           112,033,252           137,465,000                  22.7
SOUTH DAKOTA..................................            21,251,082            28,184,000                  32.6
TENNESSEE.....................................           137,350,755           152,087,000                  10.7
TEXAS.........................................           692,898,811           831,593,000                  20.0
UTAH..........................................            37,418,349            43,673,000                  16.7
VERMONT.......................................            18,015,861            23,015,000                  27.7
VIRGINIA......................................           138,409,145           170,359,000                  23.1
WASHINGTON....................................           118,080,391           143,754,000                  21.7
WEST VIRGINIA.................................            73,751,173            81,118,000                  10.0
WISCONSIN.....................................           129,069,834           152,878,000                  18.4
WYOMING.......................................            19,058,944            24,255,000                  27.3
----------------------------------------------------------------------------------------------------------------
    TOTAL.....................................         8,449,030,790        10,244,062,000                  21.2
----------------------------------------------------------------------------------------------------------------

       Estimated ESEA Title 1-A Grants to LEAs for FY2002 Under 
                    Public Laws 107-110 and 107-116
    Note: Most of the data on which these calculations are based will 
be revised before actual grants are made. In addition, neither the 
FY2001 grants nor the FY2002 estimates are adjusted for authorized 
deductions for State administration or program improvement, or for 
possible transfers of funds to charter schools or special purpose LEAs, 
or possible reallocation among LEAs serving localities with total 
population below 20,000 persons.
    The primary purpose of these estimates is to compare the relative 
impact of alternative formulas and funding levels; they are not 
intended to predict specific amounts which LEAs will ultimately 
receive.

                              TABLE 3.--ESTIMATES PREPARED BY CRS, JANUARY 24, 2002
----------------------------------------------------------------------------------------------------------------
                                                                                                          LEA
                State                  LEA code          LEA name           Actual FY   Estimated FY    poverty
                                                                           2001 grant    2002 grant      rate
----------------------------------------------------------------------------------------------------------------
WI..................................      17040  WISCONSIN DELLS........      $151,000      $180,000        10.9
WI..................................      17070  WISCONSIN RAPIDS.......       688,000       813,000        11.8
WI..................................      17100  WITTENBERG-BIRNAMWOOD..       180,000       214,000        13.2
WI..................................      17130  WONEWOC-UNION CENTER...        55,000        65,000        10.9
WI..................................      17160  WOODRUFF J1............        54,000        64,000        11.6
WI..................................      17190  WRIGHTSTOWN COMMUNITY..        63,000        75,000         6.6
WI..................................      17220  YORKVILLE J2...........         8,000         8,000         2.1
WI..................................      81003  BALANCE OF COUNTY......             0             0           0
WI..................................      81007  BALANCE OF COUNTY......             0             0           0
WI..................................      81079  BALANCE OF COUNTY......             0             0        50.0
WI..................................      81139  BALANCE OF COUNTY......             0             0           0
WI..................................      99998  UNDISTRIBUTED..........             0             0           0
WI..................................      99999  PART D SUBPART 2.......     1,233,000     1,606,000       100.0
 
WY..................................        730  ALBANY COUNTY SCHOOL          911,000     1,101,000        15.8
                                                  DISTRICT 01.
WY..................................        960  FREMONT COUNTY SCHOOL         376,000       512,000        46.9
                                                  DISTRICT 38.
WY..................................       1030  CARBON COUNTY SCHOOL          430,000       541,000        15.8
                                                  DISTRICT 01.
WY..................................       1090  BIG HORN COUNTY SCHOOL        126,000       136,000        16.0
                                                  DISTRICT 04.
WY..................................       1260  SUBLETTE COUNTY SCHOOL         99,000       129,000        13.7
                                                  DISTRICT 09.
WY..................................       1420  BIG HORN COUNTY SCHOOL        203,000       254,000        21.6
                                                  DISTRICT 01.
WY..................................       1460  BIG HORN COUNTY SCHOOL        178,000       179,000        12.3
                                                  DISTRICT 02.
WY..................................       1470  CAMPBELL COUNTY SCHOOL        839,000     1,009,000         8.2
                                                  DlSTRICT 01.
WY..................................       1700  CARBON COUNTY SCHOOL          169,000       221,000        14.6
                                                  DISTRICT 02.
WY..................................       1980  LARAMIE COUNTY SCHOOL       2,389,000     3,135,000        13.7
                                                  DISTRICT 01.
WY..................................       2070  PARK COUNTY SCHOOL            512,000       643,000        15.6
                                                  DISTRICT 06.
WY..................................       2140  CONVERSE COUNTY SCHOOL        303,000       377,000        12.4
                                                  DISTRICT 01.
WY..................................       2150  CONVERSE COUNTY SCHOOL        241,000       300,000        19.0
                                                  DISTRICT 02.
WY..................................       2370  CROOK COUNTY SCHOOL           153,000       200,000        11.1
                                                  DISTRICT 01.
WY..................................       2670  FREMONT COUNTY SCHOOL          84,000       104,000        20.3
                                                  DISTRICT 02.
WY..................................       2760  UINTA COUNTY SCHOOL           662,000       715,000        12.2
                                                  DISTRICT 01.
WY..................................       2820  FREMONT COUNTY SCHOOL         338,000       430,000        39.8
                                                  DISTRICT 21.
WY..................................       2830  FREMONT COUNTY SCHOOL         119,000       148,000        19.8
                                                  DISTRICT 06.
WY..................................       2870  FREMONT COUNTY SCHOOL         402,000       503,000        15.2
                                                  DISTRICT 01.
WY..................................       2990  GOSHEN COUNTY SCHOOL          832,000       920,000        20.4
                                                  DISTRICT 01.
WY..................................       3170  BIG HORN COUNTY SCHOOL         82,000        88,000        11.5
                                                  DISTRICT 03.
WY..................................       3180  PLATTE COUNTY SCHOOL           78,000        75,000         9.3
                                                  DISTRICT 02.
WY..................................       3310  HOT SPRINGS COUNTY            181,000       228,000        16.2
                                                  SCHOOL DISTRICT 0.
WY..................................       3770  JOHNSON COUNTY SCHOOL         257,000       321,000        16.3
                                                  DISTRICT 01.
WY..................................       4030  LINCOLN COUNTY SCHOOL         113,000        96,000         3.1
                                                  DISTRICT 01.
WY..................................       4060  LINCOLN COUNTY SCHOOL         359,000       470,000        14.0
                                                  DISTRICT 02.
WY..................................       4120  LARAMIE COUNTY SCHOOL         107,000       141,000        13.6
                                                  DISTRICT 02.
WY..................................       4230  NIOBRARA COUNTY SCHOOL        134,000       166,000        20.1
                                                  DISTRICT 01.
WY..................................       4260  UINTA COUNTY SCHOOL            94,000       123,000         7.6
                                                  DISTRICT 06.
WY..................................       4380  PARK COUNTY SCHOOL             54,000        68,000        20.3
                                                  DISTRICT 16.
WY..................................       4450  FREMONT COUNTY SCHOOL         422,000       503,000        33.0
                                                  DISTRICT 14.
WY..................................       4500  UINTA COUNTY SCHOOL           111,000       145,000        10.5
                                                  DISTRICT 04.
WY..................................       4510  NATRONA COUNTY SCHOOL       2,799,000     3,571,000        16.0
                                                  DISTRICT 01.
WY..................................       4830  WESTON COUNTY SCHOOL          182,000       193,000        12.9
                                                  DISTRICT 01.
WY..................................       4860  SUBLETTE COUNTY SCHOOL         74,000        97,000        11.3
                                                  DISTRICT 01.
WY..................................       5090  PLATTE COUNTY SCHOOL          351,000       421,000        17.1
                                                  DISTRICT 01.
WY..................................       5160  PARK COUNTY SCHOOL            319,000       417,000        14.9
                                                  DISTRICT 01.
WY..................................       5220  FREMONT COUNTY SCHOOL       1,059,000     1,324,000        22.1
                                                  DISTRICT 25.
WY..................................       5302  SWEETWATER COUNTY             714,000       888,000         9.6
                                                  SCHOOL DISTRICT 01.
WY..................................       5680  SHERIDAN COUNTY SCHOOL         19,000        24,000        18.7
                                                  DISTRICT 03.
WY..................................       5690  SHERIDAN COUNTY SCHOOL        219,000       275,000        21.1
                                                  DISTRICT 01.
WY..................................       5695  SHERIDAN COUNTY SCHOOL        732,000       909,000        14.4
                                                  DISTRICT 02.
WY..................................       5700  FREMONT COUNTY SCHOOL          81,000       100,000        19.0
                                                  DISTRICT 24.
WY..................................       5762  SWEETWATER COUNTY             366,000       478,000         8.9
                                                  SCHOOL DISTRICT 02.
WY..................................       5820  WASHAKIE COUNTY SCHOOL         54,000        76,000        33.3
                                                  DISTRICT 02.
WY..................................       5830  TETON COUNTY SCHOOL           185,000       241,000         7.9
                                                  DISTRICT 01.
WY..................................       6090  WESTON COUNTY SCHOOL           36,000        47,000        10.0
                                                  DISTRICT 07.
WY..................................       6240  WASHAKIE COUNTY SCHOOL        210,000       271,000        10.9
                                                  DISTRICT 01.
WY..................................      81029  BALANCE OF COUNTY......             0             0           0
WY..................................      81039  BALANCE OF COUNTY......             0             0           0
WY..................................      99998  UNDISTRIBUTED..........             0             0           0
WY..................................      99999  PART D SUBPART 2.......       300,000       550,000       100.0
----------------------------------------------------------------------------------------------------------------

                                                                                                      [GRAPHIC] [TIFF OMITTED] 79324.002
                                                                                                      
    The Chairman. We will have 7-minute rounds, and I will ask 
staff to keep track of the time.
    The areas I want to cover, Mr. Hickok, are the ones that we 
talked about at the Department. Initially, we want to ask about 
the process of implementation and which States you think will 
be ready to implement the new law, with approved plans, by this 
school year, which ones will be late, and what else you are 
able to tell us. Then, we want to get into the Reading First 
program a little bit, and also how Federal funds are 
supplementing other funds and not supplanting them. We find out 
that my own State is cutting $340 million in its education 
budget. It appears that that is happening in other States. We 
want to get into how we can make sure that some of these 
extremely important provisions are going to be implemented.
    I am going to also ask you a little bit about how the 
administration justifies putting $4 billion into private school 
vouchers which will not have anything to do with providing a 
well-trained teacher, nothing to do with adequate yearly 
progress, nothing to do with after-school programs, nothing to 
do with smaller class size. And please explain how an 
administration and a President that have been so strong on 
accountability can justify adding almost $4 billion for private 
schools that are exempt from all accountability requirements.
    Then, finally, I do not know if you had a chance to look 
through the very excellent program that was done the other 
night on ``60 Minutes'' on education in the military, where it 
turns out that in the military, they have 100,000 students, 200 
public schools, and 64 percent of the children in poverty. They 
have seen the significant achievement gap between races close, 
and they were asked about whether this could be replicated or 
duplicated in other parts of the country. The report said: Just 
try reproducing in the inner city the small schools that they 
have on base or the big budgets. Per-pupil spending here is 15 
percent above the national average. One thing that could be 
duplicated in every community in the country is the parent 
involvement.
    They talk about three items--small schools, resources, and 
parent involvement--and they have been able to have a dramatic 
impact in terms of improving quality and achievement. As we are 
looking over what really works, if you have not had a chance to 
see it, it might be something that you will want to take a look 
at as we are looking forward.
    So, first of all, could you tell us--and I have just used 
half of my time--a little bit about where we are in the States 
in implementing the various programs? You had some deadlines--I 
guess the deadline was the middle of April--is that right--for 
the States?
    Mr. Hickok. It was April 8, I believe.
    Ms. Neuman. April 8.
    The Chairman. What can you tell us about where we are in 
the States, and if you could then tell us which ones you think 
will be able to handle it by the fall, which ones will be in, 
out, and how you plan to deal with it.
    Mr. Hickok. I would be glad to. Let me ask Susan to respond 
to the April 8 deadline, because we were very pleased with 
where we ended up on that date.
    The Chairman. Okay.
    Mr. Hickok. Susan?
    Ms. Neuman. First, to give you a ``state of the States,'' 
more or less, one of the first things we had to do was ensure 
that the 1994 law was in fact complied with, and in fact, that 
required that States have an agreement. This does not ensure 
full compliance with exactly what was asked in 1994; rather, it 
really focused on whether they had a plan and a time line that 
ensured that they would comply. And they did--all States had 
that by April 8.
    So by April 8, we had 19 States in full approval, other 
States in time line waivers of one or two years, and five 
States in compliance agreements.
    If I could just add one more thing, for those States that 
we had compliance agreements with, it would not be enough for 
them merely to comply with a 1994 law, because in fact what 
would happen is that would ensure that they would be late for 
the 2005-2006 three through eight testing. So what we asked 
these States, for those who were going into compliance, was 
that they would segue the old law with the new law so that 
their time line actually shows compliance with 2005-2006.
    The Chairman. Well, I am interested in where we are going 
now with the new law.
    Mr. Hickok. That is what I wanted to comment on. I think 
the other important part of this story is that we have tried to 
be very proactive with the States. Secretary Paige convened a 
meeting with the State Chiefs--and I think we had over 30 
attend--2 days after the bill was signed at Mount Vernon. The 
goal here was to send a couple of messages--one, we want to be, 
as you mentioned in your opening statement, full partners with 
the States and the locals on getting this done; second, that we 
are serious about getting it done, so that this time a couple 
of years from now, we are not talking about a lot of time line 
waivers as we are now with 1994; and third, that we want to 
help them get this done. We are moving from a compliance model 
to a technical assistance model, so that one way we are going 
to work with individual States is to see where they are and 
what they need to do to get in compliance with this new law and 
what we can do to help them get there.
    The Secretary has sent individual letters to every State 
Chief about issues they need to be aware of. We have had 
meetings with the Governors' education policy advisors. We 
continue meetings as we speak with various State and local 
officials. The chiefs of the major school districts in the 
Nation got together for a meeting. So we are being very 
proactive in a lot of different ways.
    I should also mention, because you mentioned parents, that 
Secretary Paige unveiled, a couple of weeks ago in New Mexico 
and Atlanta, and last week in Las Vegas, on a 25-city tour what 
we call a tool kit for parents to understand better this new 
law.
    A lot of our challenge is to make sure that everyone in 
America realizes this is everybody's business. Certainly it is 
primarily the concern of educators, but it is also very much 
the concern of parents, taxpayers, and employers. So we want to 
reach out to those constituents in a much broader way.
    The Chairman. My time is just about up. I have two 
reactions. One, if you could comment on the parents' lawsuit on 
the Title I negotiated rulemaking process claiming your failure 
to include an equitable number of parents in the process. As I 
mentioned to the Secretary, the most important thing we want to 
avoid is demonstrations against the law; the last thing we want 
is to exclude parents from being involved or have them feel 
that they are not involved. So this is something that obviously 
has to be worked through, and I would be interested in what you 
are doing on that.
    Then, finally, because my time is up, on the reading 
program, as you know, the law is clear that programs the 
Reading First funds can support are a wide variety of 
programs--they are not limited to programs that focus on 
classroom-based instruction; they can also be used for small 
group instruction and individual tutoring programs that may not 
benefit the whole class as long as they are research-based 
strategies. Your guidance emphasizes that classroom-based 
instruction is the focus of Reading First, so I want to be 
clear that States that want to also fund small group and 
individual tutoring programs will not be prohibited from doing 
so.
    Mr. Hickok. Let me comment on the suit, and I will ask 
Susan to comment on Reading First.
    The Chairman. Okay, thank you.
    Mr. Hickok. The suit is before the court. The plaintiffs 
sought a temporary restraining order before negotiated 
rulemaking started, and the court did not grant that.
    Our position is that while the negotiated rulemaking 
process outlines certain organizations or certain sectors that 
need to be at the table--and parents are among them--we took 
the position that--two things--one, we wanted to make sure that 
people engaged in the daily delivery of education, including 
parents, at the table--not just representatives of 
organizations here in the Capital City, although there were 
some of those there at the table as well. Second, a lot of 
folks really wear a couple of different hats. They might be 
experts on teaching or curriculum, but they are also parents. 
So we felt it was a rather false kind of structure to say that 
only two parents are at the table because ``two are there to 
represent parents.''
    The Chairman. Two out of the 19. I guess the category is 
19, and two out of the 19 are parents; the others, as I 
understand, are representatives of different groups, which are 
not parents.
    Ms. Neuman. Many were parents as well.
    Mr. Hickok. But I guess our point is that although many at 
the table are parents as well as other education-related 
occupations, so we felt that they bring many non-parent hats to 
the table. That is my point.
    On Reading First, I will let Susan comment.
    Ms. Neuman. Just one other anecdote which is I think 
indicative of the negotiated rulemaking process. One of the 
parents, after the whole process was over, came up and 
testified before the group and said that in the beginning, she 
felt like she might not have a great deal to contribute, but at 
the end, she felt that her voice had been heard and that people 
were very responsive to the parent comments.
    So that Under Secretary Hickok's point about wearing 
multiple hats was very clear throughout the w hole process.
    In terms of Reading First, Reading First is really designed 
to improve reading instruction, moving it from an art to a 
science. What we are saying is that this is the most major 
reform we have seen in the history of our country, really 
focusing on what are the scientific principles of reading, what 
do we know, and then beginning to place what we know in 
classroom instruction.
    We know that the benefits of scientific-based instruction 
will help all children learn to read, but especially those 
children who have had very little opportunity.
    There was a famous study done by Dick Ellington who talked 
about the children who are struggling readers. Very often, they 
are the children who are taken to different places. They are 
pulled out for one thing, they are pulled out for another 
thing, and they end up having less instruction that any 
classroom-based instruction because they are so often pulled in 
various places.
    So what we are saying about Reading First is that the 
primary venue of instruction is the classroom, because we know 
that that classroom is so critically important.
    What we are saying also is that at times, teachers will 
need to provide supplemental instruction. That means that at 
times, they will have opportunities for supplemental 
instruction with small groups in various places perhaps outside 
the classroom. But the primary venue is the classroom, because 
that is where the rigor, the intensity, the quality of 
instruction really allows all children to succeed.
    The Chairman. Just to read the language, and then I will 
yield, it says, ``The conference intends that State educational 
agencies and local educational agencies are to be able to 
select from a wide variety of quality programs and 
interventions to fund under Reading First and Early Reading 
First, including small group and one-to-one tutoring, as long 
as those programs are based in research meeting the criteria 
and the definition of scientifically-based reading research.''
    So this is what was agreed to in the conference, and I 
think small groups and one-to-one tutoring, as I understand, 
were included in the conference as long as they were based upon 
scientifically-based research.
    Ms. Neuman. And that really means that they have to focus 
on the five components, that we agree completely on the five 
components of what we know is high-quality reading 
instruction--phonemic awareness, phonics, fluency, vocabulary 
and comprehensive.
    Very often, the one-to-one, if they are provided extra 
instruction, they have to have the full components of what we 
know is quality instruction, scientifically-based.
    The Chairman. Senator Gregg.
    Senator Gregg. Just following up on that, I think that was 
the Senator's point by reading the language of the report. For 
example, programs like Reading Recovery, which is a program 
that is very popular in a lot of New England schools, I presume 
would come under this reading agenda.
    But on another issue, what are the top five concerns that 
you are hearing from the State administrators and from the 
local, hands-on deliverers of education about the way this bill 
will be administered?
    Mr. Hickok. I think they are probably the ones that many of 
you have heard. One is the adequate yearly progress issue, 
which the law is pretty definitive about. Another one is 
capacity, the ability to manage the amount of information 
adequately that they will get in testing.
    I have to tell you that one thing I have really learned on 
this job compared to my job in Pennsylvania is that a lot of 
States have not done a lot of capacity-building in terms of 
being able to collect lots of information on student 
achievement and then to use that information. I am stunned at 
how many places test kids but never use the results to improve 
student performance or curriculum or testing--which is what 
testing is all about, obviously. So that is a big concern, I 
think.
    I think there is a general level of anxiety out there about 
how a State moves from where it is to full compliance on the 
testing accountability system. Frankly, we have not heard a lot 
of negatives on the accountability system; it is more about how 
we are going to get there and concern about implementation on 
their part.
    I would say those are the primary issues, and we share 
those concerns. That is one reason why we are talking about 
trying to do the partnerships.
    The other one is--and it really has not been an issue that 
has been discussed a lot yet, at least in the field, although I 
am eager to make sure it is discussed--making sure that those 
provisions for public school choice and supplemental 
educational services that need to kick in this fall are going 
to kick in. They are going to need some real guidance and 
support on how to go about doing that business.
    But I would say that is mostly it.
    Susan, do you have anything else?
    Ms. Neuman. No.
    Senator Gregg. What is the number of schools that you think 
are going to kick in this fall as unfortunately having met the 
failing level that will make public school choice and 
supplemental services available?
    Mr. Hickok. We should have a more definitive answer to that 
sometime at the end of May. I should explain the process and 
how it has changed. Right now and in the previous years, the 
Department receives from the States a list of the number of 
schools that are failing to make adequate yearly progress as 
identified by the State and as AYP is defined by the State. 
That number varies. I have seen figures from 6,000 to 8,000. It 
depends on the school year.
    Now they have to tell us not just how many schools but 
which schools, and that is what they are busy doing right now. 
So I cannot really answer that question yet, but we think it 
will be somewhere around 3,000 to 5,000; that is based upon 
current numbers that we have.
    Senator Gregg. So, 3,000 to 5,000 schools where you will 
immediately, theoretically, have available public school choice 
or supplemental services as an option to the parents. How do 
you see that actually being instituted?
    Mr. Hickok. Well, I think one of the first challenges we 
have is to make sure that parents know that this is an option 
that should be available. Secretary Paige in one of his first 
correspondences with the State Chiefs talked about making sure 
they are ready at the State and local level to identify the 
schools and to put together a process for public school choices 
and for supplemental services.
    We are thinking about convening a pretty large meeting of 
folks from States and from supplemental service providers to 
talk about putting structures in place. We know that some 
States are busy preparing. We have prepared some preliminary 
guidance--we are not ready to send it out yet--so we are eager 
to help them get there.
    But our challenge right now is to make sure that parents 
know what should be available, and then to talk to districts 
and States about how they should go about doing this. But we do 
not anticipate, nor do we think we should, at the Federal level 
getting down directly into implementing or telling them how to 
implement choice in supplemental services, but making sure that 
it is there.
    Senator Gregg. One presumes that it is going to be 
virtually impossible to assume that even a high percentage of 
those 3,000 to 5,000 schools are going to have in place options 
which will have been screened by the local education community 
as available and effective for supplemental services or maybe 
even options in the public school choice area. Isn't it likely 
that we are going to have a fair amount of disorientation here 
for a little while?
    Mr. Hickok. I think there are those who would like to make 
the argument that the choice provisions, at least in some 
places, are a false hope, either because enrollment is above 
capacity so there are no empty seats for them in some places, 
or because in some districts, the number of schools falling 
into this needing improvement category is so large, frankly--I 
think of some of the districts from my home State of 
Pennsylvania, for example--that the ability to move to a school 
that is not in need of improvement is somewhat cut short.
    I guess one of my responses to that is that if you inform 
parents that their children should have the option of attending 
a school that works, and then tell them ``but in reality, you 
do not have that option,'' I think you will see a level of 
interest at the local level in charter school and in making 
that choice available that we have never seen before. And I 
think that is important.
    On supplemental services, I have heard quite a bit from a 
variety of sectors of interest in getting ready to provide 
supplemental services. I have encouraged folks in higher 
education, for example--a lot of our major cities have lots of 
institutions of postsecondary and higher education. They might 
be very appropriate providers of supplemental services. We know 
of places like Sylvan and Huntington who are talking.
    So I tend to think the supplemental services aspect of this 
might become more available quicker because there is sort of a 
market there, if you will.
    On public school choice, I think we are going to have to 
make sure that that choice becomes available.
    Senator Gregg. I think we sort of presumed that when we did 
the bill, actually, or at least I did. And I think what you are 
saying is that the marketplace is going to respond, and I think 
it will, and I hope we are both right.
    Thank you.
    The Chairman. Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman, and thank you for 
conducting this oversight hearing.
    I thank both of our witnesses for being here today.
    I said last year when we began the process of dealing with 
the Elementary and Secondary Education Act that I saw a welcome 
change of heart. I remember only a few years ago at a summit 
when Republicans were talking about eliminating the Department 
of Education. We have come a long way from those days, and that 
is heartening. I commend the President for taking such a strong 
interest in the subject matter from the very beginning of his 
administration. He certainly has made this an important issue.
    I want to raise in my remarks a general question and then a 
couple of very specific ones on the draft regulations. One is 
the obvious one that has been raised by others already, and 
that is a rather paltry commitment financially to elementary 
and secondary education, particularly under this particular 
proposal where we see freezes or cuts in a number of areas that 
many of us worked on in a bipartisan fashion--hiring and 
training quality teachers, after-school programs, bilingual 
programs, Safe and Drug-Free Schools, which Senator DeWine and 
I worked on for years, serving only about 40 percent of low-
income children under Title I, and less than half the increase 
the Senate proposes for special education, just to mention a 
few.
    Some have argued that we are actually looking at a 2 
percent reduction in elementary and secondary education. The 
President said that ``Washington should be giving help to our 
schools, not giving orders.'' Yet in this bill, there are some 
orders. The mandatory testing is not a request--it is an 
order--and the question is whether schools and localities, with 
the tremendous pressures they are under financially, are going 
to meet these obligations with the lack of resources that is 
proposed in the budget.
    Now, the two specific questions have to do, one, with the 
civil rights provisions in the bill. We worked very, very hard, 
as I am sure both of you know, to allow certain community-based 
organizations to participate in some of the programs, and we 
also included the critical civil rights protections in the law 
to protect the rights of students, employees, and others. Yet 
the draft guidance that the Department has issued concerning 
after-school programs makes virtually no reference to these 
critical protections. We have not seen the guidance on 
supplemental services. So my question is why the department did 
not include the civil rights in its draft guidance and whether 
you intend to do so, as I certainly hope you would. In fact, I 
would note that the draft after-school guidance states that 
``The Secretary cannot waive civil rights provisions,'' but 
nowhere describes what those protections are.
    I see you nodding your head affirmatively, so I presume 
that is going to get back in here somewhere.
    Ms. Neuman. Exactly.
    Senator Dodd. Is that correct?
    Ms. Neuman. Yes. In fact, we are working on it now. It is 
in the last process. You should see that rather soon.
    Senator Dodd. That is good. I am glad to hear that.
    My second question deals with professional development for 
early childhood educators--also something I worked to include 
in the legislation--to help prepare children to be ready for 
school. I have cited the statistics--78 percent of all women 
with school-age children are in the work force; 65 percent of 
women with children under the age of 6 are in the work force; 
and 50 percent of women with infant children are in the work 
force.
    So the issue of working with these children where they are 
before they begin school is critical. Kindergarten teachers 
tell us today a staggering number of children come into the 
system not ready to learn. There does not seem to be any 
willingness to talk about the child care, the quality of child 
care, where so many of these children are. We are only serving 
a small percentage of eligible children under the Child Care 
Development Block Grant--even though the social, emotional, 
cognitive, and physical skills that make it possible for 
children to be ready to learn, or ready to read or achieve 
early literacy, are so critical.
    My question is whether the Department intends to limit this 
program to a pre-reading program as suggested in the budget or 
administer it in keeping with the broader policy proposals that 
we included in our statutory language.
    Let me engage you on the larger issue here--no one seems to 
want to talk about child care, and yet that is where most of 
these kids are before they start school. Head Start serves 
900,000 kids, but that is not a huge program. There are 14 
million kids under the age of 6 in child care--14 million--
every day.
    Ms. Neuman. I know those numbers well. As a researchers in 
early childhood, a teacher in reading and early childhood, I 
very much understand and appreciate your point.
    I think we are doing a great deal in this area, and to 
answer your first point, I think that when we talk about early 
childhood professional development, we are talking about the 
whole child and that we cannot divorce the social, emotional, 
and cognitive development. But so very often, we have 
overestimated or thought about child care provider and not 
child care teachers.
    One of the things that we need to recognize is that these 
people are teachers of our children, and our children are not 
coming to school well-prepared. So one of the things that we 
are trying to do in early childhood professional development as 
well as Early Reading First is bring these areas together--and 
not dichotomizing the field, where we are talking about social/
emotional, and now we are talking about cognitive--but really 
encouraging professional development that focuses on the whole 
child and what that child needs to have in order to go to 
school.
    So we are looking at the early childhood professional 
development in a much more broad way.
    Senator Dodd. Again, I come back to the budget issue--you 
freeze the Child Care Development Block Grant program, and yet 
we now know that with welfare reform, we are going to be moving 
to larger work requirements. My fear is that we will still 
continue to serve the welfare recipient, but the working poor 
who are trying to stay out of welfare, hanging barely by their 
fingernails, are going to be excluded because we do not have 
the resources to provide the accessible, affordable, and 
quality child care that is essential to do exactly what you 
have just described doing.
    Ms. Neuman. I wish it were our program, but it is HHS. So 
the whole child care provider issue is not our issue.
    Senator Dodd. But we are talking about the budget. My point 
is you are talking about that same child. It may be a different 
agency of Government, but it is the same kid; and the fact that 
you have two agencies dealing with the same child does not 
minimize the problem--if you are cutting the resources at one 
level and freezing them at another and talking about expanding 
the requirements, it does not work. That is my point.
    Mr. Hickok. If I could just make one brief follow-up, I 
mentioned in my earlier comments how the research in education 
is pretty spotty. What is really disappointing is that we do 
know--and this lady is one of the chief architects--what works 
in terms of early childhood cognitive development. And what we 
do not do in this country is a very good job of making sure we 
do what works.
    So one of our goals, whether it is with child care or Head 
Start or Early Reading or whatever, is to make sure we do what 
works. It is one thing to not know the answer to some of these 
problems--and there are a lot of answers that we do not have--
but on education and reading, we do.
    Senator Dodd. We do. And my point simply is that we 
intended to have a broad application of those concepts in here 
as we talked about the training and development of teachers to 
work in the early childhood development phase, the critical 
phase, and that is the issue I wanted to raise with you as well 
as the issue of your budgetary commitments.
    Thank you, Mr. Chairman.
    The Chairman. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Hickok, Ms. Neuman, I want to start by thanking you for 
your hard work. I know it is a monumental task that you have 
undertaken, and I am impressed with how quickly the Department 
is moving to implement the new law. That is heartening to all 
of us who worked so hard on it last year, particularly our 
chairman and our ranking Republican member, and I am very 
pleased to see the progress that you have made.
    As I mentioned in my opening statement, I am particularly 
concerned about the reading programs and worked very hard on 
the Reading First and Early Reading First programs. I have long 
been convinced that the best way for us to achieve the goal of 
leaving no child behind is to teach every child to read.
    Maine has had tremendous success with its reading emphasis, 
and indeed, our third and fourth graders rank among the top in 
the Nation on reading scores. One reason is because in addition 
to the emphasis on reading and using research-based methods, we 
have very successfully incorporated the Reading Recovery 
program that Senator Gregg referred to in his statement.
    Therefore, I share the concerns mentioned by Senator 
Kennedy and by Senator Gregg that some of the guidelines in the 
reading program appear to not allow for funding of Reading 
Recovery, and indeed there are references to classroom-only or 
small group throughout the guidelines.
    Will the guidelines be able to either be revised to make it 
clear that successful programs like Reading Recovery and other 
one-to-one tutoring could be funded with Reading First dollars?
    Ms. Neuman. It surely can be funded by Reading First 
dollars. Reading Recover--and I am very familiar with the 
program as well as all the research attached to it--has never 
described itself as a classroom-based or a program other than 
that for early intervention and acceleration of reading for 
those children who are struggling readers.
    Therefore, what we are saying with Reading First is not to 
preclude Reading Recovery at all, but to suggest its rightful 
place in reading reform. What we know is that reading 
instruction really needs a strong classroom-based, 
comprehensive-based, a coherent skill-based instruction that 
really encourages all five of the key elements, essential 
elements, of instruction.
    Reading Recovery has a place at the table, but it cannot be 
the only thing, because it is not a comprehensive program.
    Senator Collins. I agree that it should not be the only 
emphasis, but you cannot argue with the success that States 
like Maine have had where our scores nationally, year after 
year, top the Nation, and the reading specialists that I talk 
to in Maine, plus our State department of education, say that 
Reading Recovery is very much an essential part of that 
success.
    I just want to make sure that the Department is taking a 
broad approach, because our goal here is to teach children to 
read and to read well and to intervene early so that we are 
teaching children to read while that window of literacy is 
still open and before it slams shut after the third grade and 
makes it so much more difficult.
    Ms. Neuman. As I said, we are not precluding, and one of 
the wonderful things about Maine is that they have been on the 
top of the NAEP list for a long, long time, even before Reading 
Recovery was in this country. So you have a history of reading 
success in Maine that I am sure will continue.
    Mr. Hickok. Another point is that we want to make sure that 
we complement the kind of remediation that Reading Recovery is 
all about, dealing with students who are falling behind. What 
we want to do is emphasize in a more proactive sense what we 
need to do as a Nation so that fewer students begin to fall by 
the wayside and need Reading Recovery. That is not to say that 
Reading Recovery has not worked. It is a different kind of 
program. I think we want to have a balance there somehow.
    Senator Collins. Well, again, I guess I would say that 
States that are successfully teaching their children to read 
are States that we should learn from and look at what is being 
successfully used.
    Let me move on quickly to another issue. I am very pleased 
to see the proposed regulations on the assessment issue which 
has been very important to my State. Again, Maine has led the 
Nation in developing a standards-based assessment system that 
does stress high standards for all students and accountability, 
and we have a mixture of Statewide tests in some years, 
supplemented by local assessments in other years to measure 
students' progress. But always the emphasis is on high 
standards, measurement, accountability--exactly the themes that 
undermine this legislation.
    Therefore, I know that you have conflicting letters from 
members of this committee on this issue, and I want to 
emphasize my belief that you are doing the right things by not 
mandating a single Statewide assessment test but rather, a 
allowing States to have the flexibility, and that again, the 
important point is making sure that our children are learning, 
that there are concrete, good, solid measurements, and that we 
hold schools and everybody in the system accountable.
    Mr. Hickok. Just by way of reaction, I think most States--
as I said, I was in Pennsylvania for 6 years--most States have 
a system of accountability. The challenge of No Child Left 
Behind is for every State to have a more rational, systemic 
approach to accountability.
    I think the goal for all of this is the same. Some States 
will get there differently, but the goal here is to have State 
standards and a testing system that somehow measures student 
knowledge based on those standards. And how individual States 
get there will be different, and our job will be to talk to 
those States and listen to those States and see if they are 
ending up where they need to end up.
    Senator Collins. Ms. Neuman.
    Ms. Neuman. I was just going to add--but the bar will be 
high, in response to Senator Kennedy and a number of other 
people who wrote a note. The bar will be high. In other words, 
those States that choose--we have about five States right now 
who have chosen to do local State assessments. And I agree with 
you so importantly that the goal is to have a high-quality 
system with high content standards, high-quality content 
standards, and an assessment. But the bar will be high in that 
the local assessments will have to provide evidence that they 
are the highest-quality equivalent to the State assessment as 
well. For those States who can do that, we believe that the 
content, rigor, and quality will be the same.
    Senator Collins. Thank you very much.
    The Chairman. We will come back to that.
    Senator Collins. You cannot; I have to leave. [Laughter.]
    The Chairman. Senator Jeffords.
    Senator Jeffords. Thank you.
    I want to move you back in history a little bit. I was 
around in 1983 when President Reagan was President, and he had 
Terry Bell as his Secretary of Education. At that time, he 
released a report entitled ``A Nation at Risk.'' I remember 
that very well, because I worked with him and worked with him 
beyond that.
    I am disturbed when I look at the present situation and all 
the problems. Since that time we have done nothing in this 
Nation to improve the percentage of the costs that our local 
governments bear for providing education--in fact, it is even 
worse now than it was back then. And as I look through some of 
the things that we have been talking about, it would take about 
$55 billion to really give us the child care with the 
appropriate educational help, about $25 billion to lengthen our 
school days and school year; and it would take another large 
amount of money to be able to reach all the standards that we 
are applying--and there are no funds there.
    So I just wonder if we are going to walk into a situation 
where--and I praised the President when I first met with him 
and I praise him now for getting the testing in that will show 
us where we really are--but the question is where are the 
resources going to come from, and I have seen nothing out of 
the administration that is going to provide anything close to 
the funding that is necessary in that respect.
    I would just ask you if you feel that we are not just 
setting ourselves up for a huge failure? I look at Vermont and 
the number of schools that we could have. In our little State, 
we have 300 schools, but it looks to me like 100 of those may 
be on the failing side, and we do not have any resources to 
change that.
    I would also point back historically that the only time we 
have really helped our schools was back in 1948, when we 
provided about 11 percent of the total Federal budget for 
education; now we are down to a paltry amount of 1.5 percent of 
our Federal budget goes toward education.
    In all of our competitor nations, the amount of money that 
they furnish to their local schools reaches about 30 percent of 
the cost of those schools; we reach about 7 percent of the cost 
of the schools at the Federal level.
    I just want to strongly insist that we are going to have a 
disaster on our hands if we do not have methodology to provide 
the financing that is necessary. I am going to try my best to 
get that financing, but I have seen no willingness in the 
administration to recognize the serious problems that are there 
and no ideas on how the resources are going to be there to take 
care of these kids when the schools are failing.
    Mr. Hickok. May I respond?
    Senator Jeffords. Yes.
    Mr. Hickok. I remember the Nation at Risk report very well, 
and I look back on that report and the time since then in terms 
of dollars, Federal, State and local--but you are right, 
primarily State and local--and I guess I read it as telling me 
that we have spent a lot of money on education. It is clearly a 
very high priority at the State and local level. Yet we are 
still in many ways a Nation at risk, so much so that this 
committee and this Congress got together with this President 
and passed No Child Left Behind as a sort of high priority.
    So to me, the issue, in addition to resources, which will 
always be a major issue, is the wisdom with which we spend 
those resources. And I have to say, having sat in a State 
Chief's chair in Pennsylvania for 6 years, that I am convinced 
that the schools in that State over that 6-year period could do 
a much better job of spending the resources they get. Certainly 
they could use more resources, and I think we can debate and 
obviously will debate the adequacy of the resources. But I 
think that what we really want to talk about is what are those 
dollars doing in terms of results for kids. And we are 
beginning to do that in this country. We are beginning to do 
that in every State with accountability systems. We are 
beginning to do that at the Federal level with No Child Left 
Behind.
    But that is a relatively new conversation in education, and 
I am glad it is here. I welcome it. It will be very difficult. 
I would make the argument, Senator, that with a strong 
accountability system, it will be easier to recognize where the 
needs are in education, because we will have a bottom line. We 
will know where students are not succeeding. We will know where 
subpopulations are not succeeding, and that will make it easier 
to make the case for more resources, because then we can really 
focus where the need is. Up until now, that has not been the 
case.
    Senator Jeffords. We know where the needs are. The Glenn 
report that came out was terribly disturbed at the fact that we 
do not have the resources already in the schools for the 
mathematics which is necessary. I think the title, ``Before it 
is Too Late,'' I think says it all. How are we going to do it 
without more resources?
    I just anguish at the thought of all the results of the 
testing, which is great--we will know how bad we are--but 
unless there is a real look and some plan for how we are going 
to make those resources available, I think we are going to have 
an ungodly disaster on our hands next fall.
    Ms. Neuman. I would beg to disagree. One of the things that 
we say about No Child Left Behind is that there is a theory of 
action here. As Under Secretary Hickok said, one of the things 
that we are going to find through this accountability is we are 
going to disaggregate the data, and we are going to see where 
we really area. That is the first point.
    But what we have is Reading First, and Reading First is 
part of the solution. We have never tackled reading instruction 
in our country as dramatically as we are about to. Further, we 
have $100 million more going into the 2003 budget.
    So when we begin to put in scientifically-based practice--I 
mean, we have done a lot of research in the field of reading; 
as a reading researcher, I can tell you that we have done many, 
many hears of research--and we have never put it in the 
classroom. We have never used it effectively.
    Senator Jeffords. No; because we do not have the money.
    Ms. Neuman. Now we have the resources to do that and to 
target----
    Senator Jeffords. We do?
    Ms. Neuman. Yes, and to target professional development, to 
really train our teachers who have not been trained adequately 
to really teach reading to our young children.
    Senator Jeffords. Where are the resources?
    Ms. Neuman. Reading First. More than three times the amount 
of the Reading Excellence Act; a more comprehensive, more 
targeted sources of funding.
    Senator Jeffords. How much money is that in millions of 
dollars or billions of dollars?
    Ms. Neuman. It is enough to get the job done.
    The Chairman. It is a billion dollars, and the Early 
Reading Program is $75 million.
    Senator Jeffords. There is nowhere near enough resources 
for all of this. I hate to go longer on this, but I just get so 
disturbed, Mr. Chairman, when I look back at those times and 
the warnings we had, and we have not made a change since then 
in the resources, and every other nation in this world does it, 
and we do not, and we wonder why we are last in the world in 
math and science--that is why.
    The Chairman. We will keep the record open. We have had 
great attendance today, with a lot of different things going 
on. One thing I think, from the quality of the conversations, 
is that we should try to do this about every 6 or 7 weeks--
isn't this enjoyable for you?
    Ms. Neuman. I hope you are kidding.
    Mr. Hickok. We will be here, Senator.
    The Chairman. There is a real desire here to stay on top of 
this law. We know that you have a lot of things to do, but this 
is enormously important, and we will try to organize it and let 
you know----
    Senator Gregg. Is that during the school year, every 6 or 7 
weeks?
    The Chairman. We will let you know the areas that we are 
interested in so we focus the subsequent hearings. We will ask 
the committee to focus, too--and this obviously will not 
restrict them--but to give you an idea of the topics of 
interest. We do want to try to monitor this.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Let me just thank Senator Jeffords for his remarks. I think 
they get to the guts of the frustration that many of us have. 
When we worked hard to pass the ESEA bill last year, there were 
two sides to it--one was higher standards and accountability, 
and I think we all agreed on that and moved it forward and 
worked hard on that; but the other side was that we were going 
to provide the resources for districts to make it work. With 
all due respect, just having a reading program in place, 
without understanding that you cannot put a child in a 
classroom with 35 kids, implement any kind of reading program 
and expect a 6-year-old, who may come from a variety of 
different backgrounds, to learn to read is not enough. It takes 
smaller class size. We know that. All good tests show that. We 
know that you need a teacher who is trained, and putting some 
emphasis on that is critical. But we are going to be testing 
these kids and saying they are failing without providing the 
resources to address this. I am very frustrated with the 
President's budget and its lack of money and resources.
    How much of the Federal budget did you say goes to 
education, Senator Jeffords?
    Senator Jeffords. To primary and secondary, 1.5 percent.
    Senator Murray. One-point-five percent. That is really the 
crux of the problem.
    Besides all of that, let me focus it even more for you. I 
want to talk about a school district in my State, the Klickitat 
school district. It is a K-12 school district with 178 
students. It is like a lot of rural school districts around the 
country. It has severe teacher shortages. It has extremely high 
transportation costs, because it is a large district, and they 
have to transport the kids across long distances. They do not 
have advanced classes. They only have 178 students in the 
district. They receive hardly any Federal grant money because 
they are too small to effectively use funding.
    In our ESEA bill, we included a rural schools program to 
provide some additional funding and flexibility for districts 
like this. They are going to have to meet the accountability 
standards just like every other district. They are going to 
need certified teachers when standards ratchet up next year, 
without any additional funds since the administration zeroed 
that out.
    I want to know how rural districts like Klickitat school 
district are going to be able to meet the requirements if we 
have not provided the funds they need to make that happen.
    Mr. Hickok. One of my responses is that the law does 
provide for a variety of different approaches to flexibility. I 
think it is the first time, as a matter of fact, that the 
Federal law provides for opportunities for flexibility designed 
at the local level, the school district level.
    So I tend to think in terms of opportunities in these laws 
that are not necessarily defined by the certain title.
    Senator Murray. But when we did the ESEA bill, we did a 
rural schools portion, because we recognized what we were 
putting on top of these very small school districts challenges 
that are beyond what they can deal with at the local level--but 
the President's budget zero-funded it.
    Mr. Hickok. I think this budget--and I am talking about the 
larger portion of the budget, not just the rural schools--is a 
budget that reflects two things. It is war time, and this is a 
responsible approach to funding education.
    Senator Murray. I will tell you that it is war time in our 
classrooms. My State, like Senator Wellstone's and like a lot 
of other States, is in a severe budget crisis right now. 
Washington State cut $1.5 billion out of a $20 billion budget. 
They are not going to have increased funds for schools, but 
they are receiving a Federal requirement right now to have a 
lot more accountability and testing, to live up to standards. 
Their class sizes are going to be increased. I know that 
Senator Wellstone's State is laying off teachers; I assume many 
other States are as well.
    There is a crisis in our schools--there is a war-time 
crisis, you bet--but it is because kids are being asked to do 
an awful lot without the resources behind it. That is our 
responsibility. We are failing these kids.
    Mr. Hickok. Well, you mentioned the testing. As you know, 
the budget calls for money to develop a test and----
    Senator Jeffords. Only after we made you do it.
    Mr. Hickok. The budget does include money to develop the 
test.
    I guess I cannot comment about that particular district, 
obviously, and I will be glad to look at it, but I know it is 
an illustration of a larger concern, and that is rural schools.
    Senator Murray. I appreciate that you are trying to do the 
right thing, but I think it is unfair to say to our kids in our 
classrooms that we are in a war time situation, and therefore, 
we are not going to provide you the resources that you need to 
be a competent adult. We are going to require you to take 
tests. We are going to require you to live up to 
accountability, but we are not going to be there to help you do 
that.
    Mr. Hickok. And I would argue that it is unfair to tell the 
taxpayers of this great Nation--State and local taxpayers who 
have always shouldered more of the burden on this than Federal 
tax dollars--it is unfair to tell them that we should expect 
more money from you to continue to do what has not worked. We 
have now asked for record increases in the last couple of 
years. This money is just beginning to move toward the school 
districts. Let us see what kind of impact it begins to have.
    I just think that we as a Nation--you are exactly right, 
the Federal contribution has never been that large; it is 
larger now than in the past--but that is not a reflection of 
how much this Nation spends on education.
    Ms. Neuman. I would just like to add one other point. I 
think it is a classic example of what I think is so important 
to us. You have a wonderful Reading Excellence Act director. 
Her name is Jo Robinson. And you also have a wonderful Chief 
State School Officer who has done some incredible things in 
accountability.
    My point is that Jo Robinson is the kind of woman who has 
made a program work. She has begun to be more influential in 
scientifically-based reading instruction in your State, and she 
has done it sometimes at tremendous effort when there has not 
been a great deal of funding for REA, yet she did it, and she 
did it because she approached the Reading Excellence Act 
intelligently, she used the funds appropriately, and she is 
getting results.
    Senator Murray. I will not quibble with you about her 
skills, but I will tell you this. I have been in a classroom. I 
have taught. I know what happens when you have 26 kids in a 
classroom. I have been there. I have specifically been in that 
situation many times, not just once, but I will give you one 
example.
    I had 26 kids in my classroom. We were talking about the 
letter ``A.'' Each child was supposed to tell us something that 
started with the letter ``A.'' I turned to the first child, and 
he said to me: ``My dad did not come home last night.''
    Now, you tell me how I deal with that child and the 
difficult situation he is in, with 25 other kids who are 
squirrely at best, and I have to do a test the next week on 
reading.
    We have to put the resources there to reduce the class size 
so the teacher has the ability to deal with situations that 
none of us can imagine. We have to make sure that that teacher 
has training, not just in reading--and reading is important--
but in all the other skills that are so difficult. We need them 
to be in classrooms where the roofs are not leaking, and kids 
are not required to go outside to another building because 
there is no water or no facilities in the building, as in 
districts that we have across our States.
    So I really appreciate and applaud the reading program; I 
think it is absolutely essential. I will tell you that. But if 
we have just rhetoric here about how great we are doing, and we 
do not provide the dollars that are needed in our districts, we 
are going to have a failure on our hands.
    Thank you, Madam Chairman.
    Senator Clinton. [presiding]. Senator Wellstone?
    Senator Wellstone. Thank you, Madam Chairman.
    I appreciate you being here.
    First of all, I agree with my colleagues here. Part of what 
we have done is we have a Federal mandate that you are going to 
test every child in grades 3 through 8, but we do not have a 
Federal mandate that every child is going to have the same 
opportunity to do well. And our schools and our teachers down 
at the local level are saying, first of all, where are the 
resources to make sure these children can do well, and then--
and I like the idea of disaggregating; I think that is very 
important--and then, after we know which children are not doing 
as well, where is the additional help--where are the resources?
    I have to tell you, Mr. Hickok, you mentioned the 
taxpayers--I guarantee you that people in Minnesota want more 
Federal funding for education. We are seeing in some school 
districts as many as 20 percent of the teachers cut. My 
daughter's Spanish class is now up to 50 students, and that is 
supposed to be a ``conversation'' class. My son teaches in an 
inner city school in Saint Paul, and they are going without the 
resources. Minnesota wanted that bill that we passed in the 
Senate that said that we were going to take special ed, and on 
a glidepath, we were going to fund it for 6 years. That would 
be $2 billion more over 10 years for my State. Now the 
administration and the House Republican leadership came in and 
blocked it.
    In Minnesota any day of the year, people would say we want 
the Federal Government to live up to its commitment, and if you 
ask people whether they want to have all these Robin-Hood-in-
reverse tax cuts for the top one percent wealthiest Americans, 
or if you want to take some of what was going to be there and 
put it instead into education so our kids can all have the same 
chance, I am prepared to stake my reputation and I guess my 
career here in the Senate on the proposition that people would 
say give us some more resources for our schools and our kids. 
But, under the President's budget the money is just not there.
    I have been in a school in Minnesota every 2 weeks, and I 
have found few teachers who subtract from children; most of 
them add. But they do not need tests to tell them which kids 
are not doing well. What are we talking about here? We know 
which kids come to kindergarten not prepared. We know which 
kids come to school hungry. We know which kids come to school 
where English is a second language. We know which kids are on 
free and reduced school lunch. We know which kids never had the 
educational stimulation before kindergarten, and we know which 
kids move two and three times a year because there is lack of 
affordable housing.
    We already know which kids do not do well. Our question is 
whatever happened to ``leave no child behind''? That is the 
mission statement of the Children's Defense Fund. You have 
given us a tin cup budget. That is a charade. You do not 
achieve the goal of leaving no child behind on a tin cup 
budget, and that is what we have. It is symbolic politics with 
children's lives. That is what the President's budget is.
    Now that I have gotten that off my chest, a question. 
Members of the Red Lake Tribe in Minnesota talk about ESEA, and 
one of the things they are worried about is Title VII, where 
there is a 5 percent cap on administrative costs for the local 
education agencies. But tribes around the country are 
frustrated because this is the only place in the bill where 
there is a cap on the LEA. What they are saying is that some of 
the actual delivery of services might be considered 
administration.
    So my question is whether you would be willing to work with 
the tribes in developing these regulations so that we can make 
sure that the administrative caps do not actually end up 
harming the tribes' ability to provide education.
    Mr. Hickok. Yes. I looked at that before I came over, and 
most definitely, most definitely. These are some of the 
children who are most necessarily needing these services, so 
yes, we will be able to look at that.
    Senator Wellstone. Would you be willing to work with people 
in Indian country? There is a whole set of rules and 
regulations here that are critically important. I think that 
what they want to do is have a chance to sit down at the table 
with you.
    Mr. Hickok. Yes, yes.
    Senator Wellstone. I much appreciate that.
    On test quality funding--am I out of time.
    Senator Clinton. No. Go ahead.
    Senator Wellstone. Okay. The whole question of making sure 
we do testing the right way was something that I wanted to 
focus on a lot in the education bill. I have three questions 
that go together. Do you agree that test quality is something 
that we have to continue to work on and improve and that we 
need more valid and reliable tests? Will you ensure that States 
provide evidence of test quality, and will your Department 
enforce that important requirement? We added this requirement 
because we wanted to make sure, you will remember, that States 
did not just take off the shelf standardized tests. We said, 
look, tests have to be related to curriculum, they have to be 
high-quality. So, given the importance of test quality, why did 
the administration propose to cut the funding available for the 
Test Quality Enhancement grants by $10 million? We had some 
money in there that would basically enable States to do their 
own work and come up with models for improvement, and my 
understanding is that that was cut by $10 million. I am just 
asking why; it is sort of a one-two-three question.
    Mr. Hickok. Overall on the test quality issue and 
accountability issue, as Dr. Neuman said, the bar is going to 
be very high especially on the test quality. There are experts 
on this that we call psychometricians. They know far more about 
these issues than I ever will, thankfully, but their job, 
working with us, will be to look at the degree to which these 
tests relate to standards in the State and have validity and 
high quality. That is a very important concept for us. It is 
the heart of the accountability system. So the bar will be 
very, very high. And that is not meant to send the message that 
you cannot get there; it is meant to send the message that all 
of us take this responsibility seriously.
    Senator Wellstone. Ms. Neuman, did you have something to 
add?
    Ms. Neuman. As you know, the negotiated rulemaking focused 
on criteria reference tests and norm reference augmented. We 
will have a process similar to what we have already had in the 
Department of Education, and that is to subject all evidence to 
a very stringent peer review process that really focuses on 
alignment issues which we have not talked about today--
alignment is critical because it really focuses on whether we 
begin to test what we teach--and valid and reliable among those 
things. That process will continue, and in the new regulations 
what we will see are actually three options. States will be 
able to have criteria reference, criteria reference and norm 
reference augmented, or if they do it in the same year, 
criteria reference and norm reference in the same year.
    Senator Wellstone. Can I interrupt you, because I only have 
about one minute left.
    Ms. Neuman. Sure.
    Senator Wellstone. So the point is we do not want a focus 
on just a single standardized test, and we do not want teachers 
to teach to the test. We want it to be related to curriculum, 
and we want to use the best judgment of people in the 
professional testing field to make sure that they are high 
quality.
    Well, I want to tell you that I think that is really 
important, and I think that if the accountability piece is done 
the right way, it works, but if it is not, it is going to 
invite a lot of backlash.
    Then, my final point--and I am sorry to sort of speak at 
you--I again want to say in a quiet way, please remember, 
though--and I know you know this--that the test is no 
substitute for a good teacher.
    Ms. Neuman. Oh, I agree.
    Senator Wellstone. [continuing]. And it takes a large 
investment to have good teachers and maintain good teachers. A 
lot of our problem is not just recruitment, but retention. The 
test is no substitute for smaller class size, and it is no 
substitute for good technology, and it is no substitute for 
good pre-kindergarten programs, and it is no substitute for 
good after-school programs, and it is no substitute for getting 
more help to these kids when they fall behind, when we find out 
that they are behind in reading or math. That is where our 
schools are strapped for resources. That is where we should 
have done better, starting with special ed, then moving on to 
other programs. I really believe that. I know you want the 
accountability; I just think you have got to also have the----
    Ms. Neuman. Right.
    Senator Wellstone. [continuing]. The opportunity should go 
with the accountability is what I am saying.
    Ms. Neuman. A little point, and that is that professional 
development is throughout this bill, and I know you well know 
that, but in early childhood, in reading, and Title II has 
professional development, and smaller class size is an option 
within that. We have professional development in Title I.
    So I think we all agree that helping our teachers really 
begin to teach our children well is critical.
    Senator Wellstone. Thank you.
    Mr. Hickok. Could I just say something?
    Senator Clinton. Certainly.
    Mr. Hickok. You mentioned special education a couple of 
times and----
    Senator Wellstone. And I mentioned Title I, too, if you 
want to comment on that.
    Mr. Hickok. [continuing]. On special education, as you 
know, that is going to be up for reauthorization. And I guess I 
can think of no tougher or more important issue, frankly, for 
Congress to work on than looking at IDEA and making sure that 
its promise can be fulfilled.
    It is a very tough issue. It is full of litigation, it is 
full of emotion, it is full of money. It is one of those issues 
that every district really grapples with, and every State does, 
and I know that Members of Congress and the administration do.
    But I think one of our challenges is how to make sure that 
the ``E'' in IDEA is taking place. So as reauthorization 
begins, the President has appointed a commission to look at 
excellence in special education. Their ideas will come to the 
table. We will have some ideas. I cannot say I welcome the 
conversation, because it is going to be difficult, but it is a 
very important one--and I think money will be a part of it as 
well, obviously. But IDEA is so much a challenge--a human 
challenge--that I think we will get a chance, working together, 
to talk about how to make sure it is doing what it should do, 
and it is a combination of policies and dollars.
    Senator Clinton. I want to thank Secretaries Neuman and 
Hickok for being here. I was delighted by our chairman's 
statement that we will do this on a regular basis, because I 
think all of us are deeply concerned about how we implement the 
changes that were made last year. So I greatly appreciate your 
both being here. I look forward to the continuing dialogue that 
I think is necessary to ensure that we do what we intended to 
do.
    I have a number of questions. Secretary Neuman, to go back 
to Senator Collins' point, I listened carefully to your answer 
and I just have to confess that I did not understand it with 
respect to Reading Recovery. Is Reading Recovery going to be 
defined as one of the number of programs that schools may 
support?
    Ms. Neuman. We do not define anything. One of the----
    Senator Clinton. Well, let me just reference the Title I 
Monitor of March 2002 where, according to that report, the 
Department actively did promote certain reading programs at the 
Reading Leadership Academies and discouraged the use of others.
    Taking that information and combining it with Department 
regulations that are restricting funds to classroom-use-only 
programs, to my reading--and I may not read as well as I 
should; maybe I need some intensive help--but to my reading, 
that seems to exclude Reading Recovery and other effective 
intensive programs.
    Am I reading that wrong?
    Ms. Neuman. Yes.
    Senator Clinton. Okay. So tell me--I want to go on the 
record on this, because I want to be able to tell all of my 
districts in New York, particularly where we use the Reading 
Recovery program operated by the New York University, which has 
been extremely successful, that Federal funds can be used in 
New York for Reading Recovery under the Reading Excellence Act. 
Is that correct?
    Ms. Neuman. Let me be very clear about this.
    Senator Clinton. And I want you to be very clear.
    Ms. Neuman. First, I want to say that the Title I Monitor 
wrote a clarification of that particular column, and that was 
put on the web for anybody in New York or other places to read.
    Secondly, we do not have a list or a suggested list of 
programs. What every State is now doing is a couple of weeks 
ago, we sent out the Reading First application which signifies 
the most major reform in reading that we have ever had in our 
history.
    In that application, there was also guidance on how someone 
might fill out that application. Nowhere have we ever listed a 
program--we would not list Reading Recovery, we would not list 
other programs.
    The onus is on the State. The State has to write a proposal 
that focuses on the scientific basis of reading and the five 
component parts of reading--phonemic awareness, phonics, 
fluency, vocabulary, and comprehension. It has to describe how 
it focuses on a comprehensive, coherent, skill-based 
instruction----
    Senator Clinton. I understand that.
    Ms. Neuman. [continuing]. Once it does that----
    Senator Clinton. I understand that, Secretary Neuman. But 
if you are putting the emphasis on classroom-based programs, 
that sends a very clear signal to whomever fills out that 
application at the State level that a program like Reading 
Recovery, which is an intensive one-on-one program, may not be 
appropriate. Isn't that an understandable reading of what you 
are telling the districts and the States?
    Ms. Neuman. No. No, it is not.
    Senator Clinton. Well, then, I think you had better clarify 
it, because clearly, it is not only my concern. We have heard 
this on both sides of the podium today, that our districts are 
telling Senator Collins, and they are telling me, that based on 
everything they are getting from the Reading Leadership 
Academies and from the directives coming out of the Department, 
Federal dollars are not going to be welcomed in the use of non-
classroom-based reading programs.
    Ms. Neuman. What the guidance and application says is that 
it focuses primarily on classroom-based with supplemental 
opportunities throughout the program. So in other words, what a 
State would have to do is, in their application, focus on how 
they provide comprehensive reading instruction, how they may 
provide supplemental instruction when needed, but with high-
quality reading instruction, our hope is that supplemental 
instruction will not be as needed as it has in the past, 
because the quality in the classroom is better than ever 
before.
    Senator Clinton. Well, I understand that that is the hope 
that we all hold, but there is a long way to go before that 
reality can be achieved. When I think about a district like New 
York City or Buffalo, where we are not only having teachers 
laid off, where we have huge numbers of uncertified teachers, 
where we do not have the quality of instruction that clearly we 
need, we have a lot of work ahead of us.
    I was just handed the State application for Reading First--
I assume this has not been clarified--and it reads: ``The 
Reading First program focuses on putting proven methods of 
early reading instruction in classrooms.''
    So clearly, it is a focus on classroom-based instruction, 
but if you are running a school district where you have large 
numbers of uncertified teachers, where 30 percent of the 
teachers leave in the first year or two, where you have even a 
higher percentage in high-poverty areas, and you are saying to 
yourself, I am going to try to do what I know works, and we 
know that Reading Recovery works even though it is more 
expensive, and let us at least focus on those kids, because we 
have highly-trained teachers we can use for this intensive 
program while we try to create a teacher pool that can perhaps 
have classroom-based instruction, are you going to permit that?
    Ms. Neuman. We are going to look at a State application, 
and the State application will focus on----
    Senator Clinton. So in other words, you are not saying yes, 
and you are not saying no.
    Ms. Neuman. [continuing]. I am saying that the expert 
panel--this is not for me to decide--but every proposal will be 
examined by an expert panel who will look for whether 
instruction is provided and the comprehensive nature of that 
proposal. Supplemental instruction is possible, and it says it 
very clearly in that.
    But the focus here in Reading First--I can remember as a 
reading specialist, I was in one school in Philadelphia where 
there were 300 kids who needed supplemental instruction in 
remedial reading, there were 12 children who got remedial 
reading instruction in that school, and there were over 280 
children waiting for instruction.
    With Reading First, what we are focusing on is quality 
instruction for all of our children and supplemental 
instruction for those who need it.
    Senator Clinton. Well, Secretary, I would just suggest that 
in districts like the one I represent, nearly every child needs 
it. It is not supplemental. It is essential. And I would hate 
to think that I had voted for a bill that would result in my 
districts who are using Reading Recover in a good partnership 
with universities and actually making a difference in the lives 
of some children being told: No--we are going to ask you to go 
to classroom-based even though you may not have certified 
teachers, even though you may not have the means to go to 
classroom-based, and therefore, you are going to lose these 
kids who could obtain grade-level achievements in reading 
through Reading Recovery.
    I would just ask you very seriously to please take another 
look at this. This is obviously a concern not only in Maine, 
where they do extremely well already, but in New York, where we 
have some children who are going to be left behind.
    Let me ask also, are you planning to conduct a negotiated 
rulemaking process around the definition of scientifically-
based research?
    Ms. Neuman. No.
    Senator Clinton. No. Okay. I think it is going to be 
interesting, then, to see what your expert panels determine are 
the allowable programs that are going to be funded.
    Ms. Neuman. No programs are listed in the application.
    Senator Clinton. But classroom-based is the criterion.
    Ms. Neuman. Classroom-based in terms of the five essential 
components. For example, any program--some people may name it, 
some people will not--but if will have to indicate five 
essential components of good reading instruction.
    Senator Clinton. And does Reading Recovery meet that, 
except for the classroom-based aspect?
    Ms. Neuman. I would leave that to the expert panel to make 
a decision, and those expert panels will be examining the 
comprehensive nature of that instruction.
    Senator Clinton. One of the issues that I am also confused 
about is the alignment of the tests with State standards. It 
was our intention, those of us who went along with the increase 
in testing, to ensure that every State had a coherent testing 
system that allowed for comparisons between school districts. 
Yet, in the regulations, it appears that the Department is 
allowing States to use local assessments in every year if they 
choose. That then creates yet again a patchwork which will make 
it very difficult if not impossible to compare student 
performance across districts, and in addition, with the NAEP 
scores not being available at the district level, this is not 
going to be a very useful check on State and local assessments.
    I listened as you said that we can use criterion reference, 
norm reference, but if you use local assessments, how are you 
going to develop the kinds of comparisons that many of us 
thought were really at the heart of the testing program, 
Secretary Hickok?
    Mr. Hickok. The issue really is whether it would create a 
patchwork assessment system.
    Senator Clinton. Well, now, stay with me on this, because 
you know, I am not a--what did you say?
    Mr. Hickok. Psychometrician.
    Senator Clinton.  [continuing]. Yes, a psychometrician.
    Mr. Hickok. Neither am I.
    Senator Clinton. So it is kind of like the blind leading 
the blind here, I guess.
    But if each local school district has the ability now to 
use local assessments, and after leaving no child behind, it 
has the ability to use local assessments, what have we gained?
    Mr. Hickok. Well, first of all, if it were that simple, if 
it were simply the status quo with local assessments, we would 
have gained nothing. But the whole thrust of the negotiated 
rulemaking proposed regulations is to say this to the local 
assessment State: If you choose to try to do this under No 
Child Left Behind, you are going to have to make the kinds of 
adjustments to your system that reflect test validity on State 
standards so that you do not create--even thought it has the 
appearance--you do not create a patchwork system.
    The psychometricians tell us that that is possible but 
very, very difficult, so any State that chooses to go that 
route will have to make a pretty tough case that they are not 
merely creating a patchwork system of assessment, because we do 
not think that that is what the letter or the spirit of the law 
is all about.
    Senator Clinton. Well, I have to confess that I do not know 
why we are going down this road to start with. It seems to me 
that the whole idea was to have some coherent testing system 
that allowed comparisons. And if you know, going into it, that 
it is very difficult, but some people are going to try to do 
it, and then we have to set up a process for holding them 
accountable and determining whether or not they have done it, 
we are just kicking this can down the road. I do not see the 
point behind that.
    Mr. Hickok. I think in part it is because we recognize that 
if you have 50 States and additional Territories, each of which 
might do things differently and have done things differently, 
have reached a different level of standards and assessment and 
accountability in their State, and rather than say to all 50 
States ``It is our way or the highway; we have all the answers 
on this,'' we are saying this is what we are looking for, this 
is the goal we have in mind, which I think we have all agreed 
up, and if you can reach this goal using your strategy, make 
your case.
    We think it is going to be much tougher to do it on a local 
assessment basis, but we are not going to say that we have the 
corner of wisdom on this. We will wait and see if they can make 
the case, but it is going to be tough to do.
    Senator Clinton. Well, I thought the whole idea of 
Statewide assessments was one of the fundamental assumptions 
underlying the accountability system that we were adopting, and 
I am just surprised to learn that we are going to start down 
this road where we basically permit local districts to first of 
all have some kind of a dispute process with the State to argue 
that they can keep their own local assessment systems, and then 
we are going to decide whether or not that works. I just think 
we have created a bureaucratic and regulatory morass.
    But I have made my views known earlier in a letter that I 
signed along with some of my colleagues to Secretary Paige, and 
I am very, very concerned that this really does run counter to 
what we had originally determined was the big step that all of 
us were willing to take, which was to move toward Statewide 
assessments, and I will certainly look forward to our 
continuing dialogue about what this means and how we are going 
to achieve the original idea.
    I am also concerned, looking at some of the cuts that the 
President's budget is making, with some of the specifics 
concerning leadership in our schools. Title II authorized a 
School Leadership Program that was designed to help high-need 
districts recruit and retain principals, which is a major 
problem throughout the country.
    Again, just speaking for New York, 40 percent of our 
principals are expected to retire in the next decade, and in 
New York City, 165 of our 1,000 principals were not certified 
when the schools opened. Part of the reason that I championed 
this idea was to try to get some Federal dollars behind the 
idea that we needed to support strong school leadership. We 
funded that at $10 million in fiscal year 2002, and my first 
question is when can we expect to see States and districts 
receiving that program; but then, my second question is that it 
is zeroed out in fiscal year 2003, and I was wondering about 
the rationale behind that.
    Mr. Hickok. I will let Susan answer the question about when 
you will receive funds.
    Ms. Neuman. Actually, we are working on the application 
package right now for the principalships, so that should be 
available shortly.
    I think that one of the key issues--strong principalship 
is, as you know, incredibly important, and instructional 
leadership is also incredibly important--I think that that 
particular program can be melded and integrated with much of 
the Title II professional development, creating instructional 
leaders. So I think that was the consideration.
    I would like, however, to go back before we go on too far 
to talk about the patchwork, because I do not see it as a 
patchwork at all in terms of testing. One of the things that we 
know is that very few States are taking that option of local/
State assessments. Five States are currently doing that. As 
they change to a Statewide system which goes 3 through 8, it is 
highly questionable how many States will continue to do that.
    If Senator Collins were still here, she would probably 
indicate that what has happened in the past is that the State 
has used local assessments and has then calibrated those 
assessments against the State assessment, providing a mechanism 
so that we really can see one system.
    As Under Secretary Hickok talked about, it is really 
incredibly important to focus on all of the assessments aligned 
to the content standards, so that was the strategy that allows 
them to use the local assessment yet calibrate it against the 
State assessment mechanism.
    So we do not see it as a patchwork as much as an option.
    Senator Clinton. Well, if the five States that are using 
those local assessments do not reach the high bar of 
calibration, will you approve their plans?
    Ms. Neuman. What we decided in the negotiated rulemaking--
which again is still in the process, since we are about to do 
regional meetings--is that they would have to have a 
statistical measure to show equivalence, so that the local 
assessment in terms of quality, rigor and depth would be of the 
same quality as the State assessment, and they would have to 
show it not in face validity issues or content validity but 
would actually have to show statistically that they were 
similar. This will avoid one testing being different from 
another.
    Senator Clinton. Over what period of time will they have to 
show that?
    Ms. Neuman. They would have to have current validity. In 
other words, it is----
    Senator Clinton. And if they fail to do that, you do not 
approve their plans?
    Ms. Neuman. Yes, exactly.
    Mr. Hickok. And that is another reason why, as I mentioned 
earlier, Senator, it is so important that we start--and we are 
starting--to work with States now. We do not want to just tell 
States, ``This is what you have to do. Come back in 3 or 4 
years and let us know if you did it,'' and then say, ``No, you 
did not do it.''
    Some States are going to have a much tougher time, so our 
goal is to work with States so that if they are encountering 
the kinds of challenges we are talking about right here, we can 
let them know quickly so they can move in the right direction. 
It is very important.
    Senator Clinton. I agree with that. Obviously, that is the 
whole idea behind what we did.
    Finally, I have a particular interest in a provision in the 
bill about the Healthy Schools provision which concerns some of 
the issues that we are now exploring and learning more about, 
which involve the impact of dilapidated public school buildings 
on the health of our children.
    We also had a big article today in The Washington Post, I 
believe, an investigate article about schools being built on or 
near toxic waste sites, children getting sick because of their 
attendance in school buildings and on school property, soccer 
fields and the like. It is a particular concern of mine because 
we have a number of such issues raised in New York. I recently 
sent a letter to Secretary Paige asking that he use his 
discretionary authority to provide funding for this program, 
which is to conduct a study to explore the health and learning 
impacts of sick and dilapidated public school buildings on 
children.
    Does the Department intend to fund the Healthy and High 
Performance Schools Program, Secretary Hickok?
    Mr. Hickok. I will have to get back to you on his response 
to your letter; I do not know if he has responded yet.
    Senator Clinton. Not yet.
    Mr. Hickok. But certainly we share everyone's concern about 
the healthy conditions of schools. I mean, that is a pretty 
basic issue. And if there is a way that we can contribute some 
kind of analysis as you suggest, we would be glad to do it.
    I think we have to look at all of these issues relating to 
things such as school renovation, construction, et cetera, with 
a couple of very big questions in mind, not the least of which 
is should there be a Federal role here, and how large a Federal 
role should it be.
    So my short answer to your question, although it is not 
that short, is that I think the jury is still out on where we 
should be on that issue.
    Senator Clinton. Well, I would hope that you would at least 
fund the study, because it is very difficult to make decisions 
at the local or State level without good information.
    Mr. Hickok. I agree with that, certainly.
    Senator Clinton. This would help us to determine what we 
might need to do. And of course, the reasoning behind the 
Senate's passage of its version of the education bill that 
would have provided for full funding of special education was 
to free up State and local dollars for some of the goals like 
lower class size and construction and modernization needs that 
we have. With the administration's decision to cut both of 
those programs and to take the Federal role out of both 
construction and modernization as well as adding teachers to 
the classroom, it is very difficult to ask many districts, 
particularly those that are hard-pressed and do not have a very 
big property base on which to tax to begin with, to deal with 
some of these concerns.
    So if there is not going to be a Federal role, then, at 
least, the Federal role that was accepted 25-plus years ago to 
fully fund special education ought to be addressed and dealt 
with in order to properly align the Federal, State and local 
financial burden so that we can have a better way of making 
some of these tough decisions. It would be easier for districts 
to deal with some of their classroom size issues and 
construction issues if they did not have the fastest-growing 
part of their budget being the special education budget.
    Mr. Hickok. Well, certainly, I made my comments known about 
special education. I think it is a combination of resources and 
policy that needs to be studied very carefully.
    Senator Clinton. I do not think you will get any argument 
from any of us, but a promise or at least a goal was set all 
those years ago, and the Senate in a bipartisan way voted to 
finally meet that goal, and unfortunately, we were not 
successful in keeping it in the conference. But it would 
certainly go a very long way toward fulfilling the stated 
purpose of leaving no child behind if this administration would 
support fully funding special education.
    As we go through the process of reauthorization, it is 
going to be very difficult to make some of the tough decisions 
we need to make in the absence of a commitment to fully fund 
special education, and I would hope that the administration 
would work with us toward that end.
    Mr. Hickok. Well, we are certainly going to work with you 
and with the members of the committee on special education 
generally and on implementation of this law, so we look forward 
to those conversations.
    Senator Clinton. Thank you very much for coming. We look 
forward to seeing you again, and I hope that members and staff 
remember that Senator Kennedy said we would leave the record 
open. We will leave it open for 5 days for additional 
statements and questions.
    Thank you very much. We are adjourned.
    [Whereupon, at 4:30 p.m., the committee was adjourned.]
  

                                <greek-d>

</pre></body></html>
